<html>
<title> - THE ASSAULT WEAPONS BAN OF 2013</title>
<body><pre>[Senate Hearing 113-874]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 113-874

                         HEARING ON THE ASSAULT
                          WEAPONS BAN OF 2013

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                           February 27, 2013

                               ----------                              

                           Serial No. J-113-5

                               ----------                              

         Printed for the use of the Committee on the Judiciary




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






























                                                        S. Hrg. 113-874

                         HEARING ON THE ASSAULT
                          WEAPONS BAN OF 2013

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           February 27, 2013

                               __________

                           Serial No. J-113-5

                               __________

         Printed for the use of the Committee on the Judiciary
         
         
         
         
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
       
         
         
         
         
         
         
         
         
         
         
         
         
                           U.S. GOVERNMENT PUBLISHING OFFICE 

25-650 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
         
         
         
         
         
         
   
   
   
   
   
   
   
   
   
   
   
         
         
         
         
         
         
         

                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
DIANNE FEINSTEIN, California         CHUCK GRASSLEY, Iowa, Ranking 
CHUCK SCHUMER, New York                  Member
DICK DURBIN, Illinois                ORRIN G. HATCH, Utah
SHELDON WHITEHOUSE, Rhode Island     JEFF SESSIONS, Alabama
AMY KLOBUCHAR, Minnesota             LINDSEY GRAHAM, South Carolina
AL FRANKEN, Minnesota                JOHN CORNYN, Texas
CHRISTOPHER A. COONS, Delaware       MICHAEL S. LEE, Utah
RICHARD BLUMENTHAL, Connecticut      TED CRUZ, Texas
MAZIE HIRONO, Hawaii                 JEFF FLAKE, Arizona
            Bruce A. Cohen, Chief Counsel and Staff Director
        Kolan Davis, Republican Chief Counsel and Staff Director
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
                            C O N T E N T S

                              ----------                              

                     FEBRUARY 27, 2013, 10:06 A.M.

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Feinstein, Hon. Dianne, a U.S. Senator from the State of 
  California.....................................................     1
Grassley, Hon. Chuck, a U.S. Senator from the State of Iowa......     4

                               WITNESSES

Witness List.....................................................    59
Adams, Hon. Sandy, a former Representative in Congress from the 
  State of Florida...............................................    44
    prepared statement...........................................   156
Begg, William V., III, M.D., Director, Emergency Medical 
  Services, Western Connecticut Health Network, Newtown, 
  Connecticut....................................................    37
    prepared statement...........................................    75
Flynn, Edward A., Chief, Milwaukee Police Department, Milwaukee,
  Wisconsin......................................................     8
    prepared statement...........................................    66
Hardy, David T., Attorney, Law Offices of David Hardy, Tucson, 
  Arizona........................................................    42
    prepared statement...........................................   141
Heslin, Neil, Newtown, Connecticut...............................    35
    prepared statement...........................................    70
Johnson, Nicholas J., Professor of Law, Fordham University, 
  School of Law, New York, New York..............................    40
    prepared statement...........................................    86
    appendix.....................................................    93
Nutter, Hon. Michael A., Mayor, Philadelphia, Pennsylvania, and 
  President, The U.S. Conference of Mayors, Washington, DC.......    45
    prepared statement...........................................   162
Walsh, John F., U.S. Attorney, District of Colorado, U.S. 
  Department of Justice, Denver, Colorado........................     7
    prepared statement...........................................    60

                               QUESTIONS

Questions submitted to Hon. Sandy Adams by Senator Grassley......   167
Questions submitted to Chief Edward A. Flynn by Senator Grassley.   169
Questions submitted to David T. Hardy by Senator Grassley........   172
Questions submitted to Professor Nicholas J. Johnson by Senator 
  Grassley.......................................................   173

                                ANSWERS

Responses of Hon. Sandy Adams to questions submitted by Senator 
  Grassley.......................................................   174
Responses of Chief Edward A. Flynn to questions submitted by 
  Senator Grassley...............................................   179
Responses of David T. Hardy to questions submitted by Senator 
  Grassley.......................................................   185
[Note: At the time of printing, after several attempts to obtain 
  responses to the written questions, the Committee had not 
  received any communication from Professor Nicholas J. Johnson.]

                MISCELLANEOUS SUBMISSIONS FOR THE RECORD

Alliance for Business Leadership, The, Boston, Massachusetts, 
  December 20, 2012, letter......................................   217
American Academy of Nursing (AAN), Washington, DC, January 30, 
  2013, letter...................................................   220
American Academy of Pediatrics (AAP), Elk Grove Village, 
  Illinois, January 17, 2013, letter.............................   222
American Bar Association (ABA), Chicago, Illinois, January 17, 
  2013, letter...................................................   212
American College of Surgeons (ACS), Washington, DC, February 25, 
  2013, letter...................................................   224
American Congress of Obstetricians and Gynecologists (ACOG), 
  Washington, DC, January 23, 2013, letter.......................   226
American Federation of Teachers (AFT), Washington, DC, ``Newtown: 
  A Call for Ideas,'' statement..................................   214
American Medical Association (AMA), Chicago, Illinois, January 
  29, 2013, letter...............................................   219
American Public Health Association (APHA), Washington, DC, 
  January 24, 2013, letter.......................................   227
AZPASS, Arizona People Acting for a Safer Society, Phoenix, 
  Arizona, letter................................................   228
Barbour, Bill, North Haven, Connecticut, statement--Redacted.....   232
Black American Political Association of California (BAPAC), Los 
  Angeles, California, December 17, 2012, letter.................   230
Blackwell, J. Kenneth, former Mayor of Cincinnati and Ohio 
  Secretary of State, statement..................................   336
Caffrey, Rebecca, Ph.D., M.B.A., February 27, 2013, letter.......   209
California Medical Association (CMA), Sacramento, California, 
  2013 talking points............................................   239
California Teachers Association (CTA), Burlingame, California, 
  February 4, 2013, letter.......................................   235
Center for Urban Renewal and Education (CURE), Washington, DC,
  statement......................................................   348
Child Welfare League of America (CWLA), Washington, DC, statement   242
Cities of Long Beach, Los Angeles, Oakland, Sacramento, San 
  Diego, San Francisco, San Jose, and Santa Ana, California, 
  January 23, 2013, letter.......................................   264
City of Beverly Hills, California, January 11, 2013, letter......   231
City of Boston, City Council, Boston, Massachusetts, statement...   233
City of Encinitas, California, Hon. Teresa Arballo Barth, Mayor, 
  January 31, 2013, letter and resolution........................   244
City of Los Angeles, California, Hon. Antonio R. Villaraigosa, 
  Mayor,
  statement......................................................   333
City of Orange Cove, California, Hon. Gabriel Jimenez, Mayor, 
  January 28, 2013, letter.......................................   260
City of Petaluma, California, Hon. David Glass, Mayor, January 
  17, 2013, letter...............................................   270
City of Santa Rosa, Hon. Scott P. Bartley, Mayor, California, 
  January 29, 2013, letter.......................................   304
Clement, Alexandra, Newtown, Connecticut, February 27, 2013, 
  letter.........................................................   191
Coalition to Stop Gun Violence (CSGV), Washington, DC, statement.   320
County of Los Angeles Board of Supervisors, Los Angeles, 
  California,
  January  10,  2013,  letter....................................   269
Cunningham, Kelly, Ohio resident, February 26, 2013, letter......   241
D'Agostino, Paul and Noelle, Newtown, Connecticut, March 6, 2013, 
  letter.........................................................   243
Dargon, Michelle, Newtown, Connecticut, February 27, 2013, letter   203
Dolzall, Christina, Newtown, Connecticut, February 27, 2013, 
  letter.........................................................   192
Einstein, Rev. Dr. Gay Lee, et al., Charlottesville, Virginia, 
  statement......................................................   195
Faiths United to Prevent Gun Violence, Washington, DC, statement.   252
Frandsen, Ronald J., ``Enforcement of the Brady Act, 2010: 
  Federal and State Investigations and Prosecutions of Firearm 
  Applicants Denied by a NICS Check in 2010,'' research report...   350
Fryer, Lisa M., M.S. SLP-CCC, Ridgefield, Connecticut, statement.   199
Gibson, Hon. Bruce, Supervisor, District Two, San Luis Obispo 
  County,
  California, January 29, 2013, letter...........................   301
Glover, Sylvia, March 6, 2013, letter............................   261
Grandmothers for Peace International, Elk Grove, California, 
  December 17, 2012, letter......................................   262
Hill, Abby, C.P.D.T., Newtown, Connecticut, February 27, 2013, 
  letter.........................................................   189
Hoosiers Concerned About Gun Violence, Indianapolis, Indiana, 
  January 30, 2013, letter.......................................   263
International Association of Campus Law Enforcement 
  Administrators et al., list....................................   247
Ku, Michelle Embree, Newtown, Connecticut, February 27, 2013, 
  letter.........................................................   204
Lansdowne, William M., Chief of Police, San Diego, California, 
  January 17, 2013, letter.......................................   300
Los Angeles Community College District Board of Trustees, Los 
  Angeles, California, February 5, 2013, letter..................   266
Mayors Against Illegal Guns, ``U.S. Mayors Call on Congress To 
  Support Assault Weapons Ban,'' statement.......................   271
McDade, Gina, statement..........................................   281
McNabb, Lu Ann Maciulla, March 6, 2013, letter...................   200
Million Mom March, Martina Leinz, Virginia State President, March 
  5, 2013, letter................................................   201
MomsRising, MomsRising.org, statement............................   282
Mothers United for Reform Now (MOURN), Northern Virginia, 
  statement--Redacted............................................   297
Murphy, Samantha, Roswell, Georgia, letter.......................   285
Murray, Po, Sandy Hook, Connecticut, February 27, 2013, letter...   207
National Association of Social Workers (NASW), Washington, DC, 
  January 17, 2013, letter.......................................   286
National Parent Teacher Association (PTA), Alexandria, Virginia, 
  statement......................................................   295
National Parks Conservation Association, Washington, DC, January 
  24, 2013, letter...............................................   287
National Education Association (NEA), Washington, DC, January 23, 
  2013, letter...................................................   288
National Physicians Alliance (NPA), Washington, DC, statement....   289
Newbrough, Jenny, Raleigh, North Carolina, February 27, 2013, 
  letter.........................................................   196
Newtown Action Alliance, February 27, 2013, letter...............   194
Ohio Coalition Against Gun Violence (OCAGV), Toledo, Ohio, 
  January 25, 2013, letter.......................................   291
Pacchiana, Miranda, Newtown, Connecticut, February 27, 2013, 
  letter.........................................................   206
Pathways Faith Community, Walnut Creek, California, January 29, 
  2013, letter...................................................   292
Physicians for Social Responsibility (PSR), Washington, DC, March 
  4, 2013, letter................................................   293
Precision Remotes LLC, Richmond, California, statement...........   294
Prince William County Alliance to End Gun Violence, statement....   236
Pokwatka, Aimee, Sandy Hook, Connecticut, February 27, 2013, 
  letter.........................................................   190
Richardson, Barbara, Sandy Hook, Connecticut, statement..........   296
Save the Children Action Network, Inc., Washington, DC, February 
  8, 2013, letter................................................   306
Society for Advancement of Violence and Injury Research (SAVIR),
  Washington, DC, statement......................................   307
Stone, Geoffrey R., et al., ``The Second Amendment,'' statement..   342
Tromater, Jim, March 6, 2013, letter.............................   197
20 Children, January 19, 2013, letter............................   211
United States Conference of Mayors, The, Washington, DC, January 
  28, 2013, letter...............................................   325
United States Conference of Mayors, The, Washington, DC, ``The 
  Sandy Hook Principles,'' statement.............................   302
United States Department of Justice, Bureau of Alcohol, Tobacco, 
  Firearms and Explosives, ``Firearms Transaction Record Part I--
  Over-the-Counter,'' form.......................................   335
Ventura County Board of Supervisors, Ventura County, California, 
  January 10,
  2013, letter...................................................   331
Ventura County Board of Supervisors, Ventura County, California, 
  resolution.....................................................   332
Violence Policy Center (VPC), ``Assault Weapons and High-Capacity
  Ammunition Magazines,'' Washington, DC, statement..............   308
Washington Office on Latin America, Washington, DC, statement....   334
Young, Rob, California police officer,``The Fallacy of Gun Free 
  School Zones,'' statement......................................   338

                  ADDITIONAL SUBMISSION FOR THE RECORD

Submissions for the record not printed due to voluminous nature, 
  previously printed by an agency of the Federal Government, or 
  other criteria
  determined by the Committee, list..............................   368

Nutter, Hon. Michael A., Mayor of Philadelphia, Pennsylvania, and 
  President,
  The U.S. Conference of Mayors, Proposal for the Creation of the 
  National
  Commission on Domestic Terrorism, Violence and Crime in 
  America,
  proposal:

     https://www.judiciary.senate.gov/imo/media/doc/
      Proposal%20for%  
      20the%20Creation%20of%20the%20National%20Commission%20on%  
      20Domestic%20Terrorism,%20Violence%20and%20Crime%20in%  
      20America.pdf..............................................   368
 
                    THE ASSAULT WEAPONS BAN OF 2013

                              ----------                              


                      WEDNESDAY, FEBRUARY 27, 2013

                              United States Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:06 a.m.,
in Room SH-216, Hart Senate Office Building, Hon. Dianne
Feinstein, presiding.
    Present: Senators Feinstein, Schumer, Durbin, Whitehouse, 
Klobuchar, Franken, Blumenthal, Grassley, Graham, Cornyn, Lee, 
and Cruz.

          OPENING STATEMENT OF HON. DIANNE FEINSTEIN,
          A U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Feinstein. I am going to call this hearing to 
order, and I want to begin by welcoming our witnesses and also 
people who are interested in this subject who have taken the 
time to be here. It is very much appreciated.
    The process will be this: I will make a statement. The 
distinguished Ranking Member, Senator Grassley, will make a 
statement. We will then go to our first two governmental 
witnesses and, secondly, the second panel.
    We will ask witnesses to confine their remarks as much as 
they can to 5 minutes or so, and on the Committee we will 
follow the early-bird rule, which is first come, we will call 
on them first to ask questions afterwards in 5-minute rounds. 
So I will begin with my statement.
    On December 14th, 20 sets of parents received a call no 
parent ever wants to receive: that they would never see their 
son or daughter again. Earlier that day, a deranged killer, 
wielding an assault weapon and armed with a high-capacity 
ammunition magazine, shot his way into Sandy Hook Elementary 
School in Newtown and unleashed a rapid hail of bullets, 
killing 20 young children, mostly 6-year-olds, and six brave 
administrators in just a handful of minutes that it took for 
law enforcement to respond to the scene. That horrific event 
shocked our Nation to its roots, and the pictures of these 
little victims brought tears to the eyes of millions of 
Americans.
    We are holding today's hearing because the massacre in 
Newtown was, sadly, not an anomaly. From the 1966 shooting 
rampage at the University of Texas to the Newtown massacre, we 
have witnessed an increasing number of these mass killings. 
Since 1982, there have been at least 62 mass shootings across 
the United States, and they have been accelerating in recent 
years. Twenty-five of these shootings have occurred since 2006, 
and seven took place in 2012.
    The one common threat running through these mass shootings 
in recent years, from Aurora, Colorado, to Tucson, Arizona, to 
Blacksburg, Virginia, is that the gunmen used a military-style, 
semiautomatic assault weapon or a large-capacity ammunition 
magazine to commit unspeakable terror.
    We have with us today victims of the shootings in Newtown, 
Aurora, and Virginia Tech. Would all the victims of gun 
violence in this room please stand for a brief moment?
    Thank you very much. We appreciate it.
    We will also have with us law enforcement officers from 
around the country who have traveled here to support our 
efforts to ban these military-style assault weapons, including 
the chiefs of police of Tempe, Arizona; North Ridge, 
California; Vail, Colorado; Athens-Clarke County, Georgia; 
Algonquin, Illinois; Wesley, Massachusetts; Baltimore County, 
Maryland; Norman and Spencer in Oklahoma; Tualatin, Oregon; 
Waverly, Pennsylvania; Petersburg, Virginia; the universities 
of Central Florida, of Washington, of Wisconsin-Madison, and of 
Dickinson and McDaniel Colleges; and the leaders of the State 
police in New York and Rhode Island.
    Would these and other law enforcement officers here today 
please stand and be recognized?
    Thank you very much.
    We cannot allow the carnage I have described to continue 
without taking action on what is a serious matter of public 
policy, and that is why I have joined with many of my 
colleagues, some on this Committee--Senators Schumer, Durbin, 
Whitehouse, Klobuchar, Franken, Blumenthal, and Hirono, as well 
as many others off the Committee--to introduce legislation to 
prohibit the sale, transfer, manufacture, and importation of 
assault weapons and high-capacity magazines.
    As the Members of this Committee know, we enacted a ban on 
assault weapons and high-capacity magazines, which I authored 
in the Senate and Senator Schumer sponsored in the House, in 
1994. Unfortunately, that law had a 10-year sunset, and 
Congress failed to renew it when it expired in 2004.
    Since the ban expired, over 350 people have been killed 
with assault weapons. Over 450 have been wounded. And the 
weapons are even more lethal today than they were in 2004. Let 
me give you an example, and you can watch this on the screen.
    You can buy what is called a ``bump fire stock'' legally, 
which you insert into an AR-15 or other assault rifles. This, 
as I said, is legal. It is not cosmetic, and it allows a 
semiautomatic firearm to be fired as quickly as a fully 
automatic shotgun--excuse me, machine gun, which has been 
banned for decades. I would like to quickly show this weapon 
firing, with the slide in it.
    [Video playing.]
    Senator Feinstein. You see this bump fire slide working as 
it mimics a fully automatic weapon. So it has got the 
versatility of low fire rates plus those very high fire rates. 
And that is legal today.
    Since the Newtown massacre, several States, including 
California--how long is it? That is it?
    Since the Newtown massacre, several States, including 
California, Delaware, Maryland, and New York, have shown 
leadership in moving to ban assault weapons or strengthen 
existing bans. Even so, the need for a Federal ban has never 
been greater.
    For instance, California law enforcement tells me that our 
State's assault weapons ban has been effective in reducing the 
availability of these deadly weapons. But some criminals 
continue to acquire the guns from neighboring States, like 
Arizona, where they are unregulated. And as Senator Durbin 
stated at the last hearing, and I quote, ``In the last 20 
years, 9 percent of the crime guns in the city of Chicago could 
be traced to the State of Mississippi.'' It is clear that we 
need a national solution.
    Let me describe briefly the key features of this new 
legislation, the Assault Weapons Ban of 2013. The bill bans the 
sale, transfer, importation, and manufacture of 157 
specifically named semiautomatic assault weapons. It bans any 
other assault weapon which is defined as semiautomatic, that 
can accept a detachable magazine, and has one military 
characteristic, such as a pistol grip, barrel shroud, or 
folding stock. These features were developed for military 
weapons to make them more effective and efficient at killing 
people in close combat situations.
    The bill prohibits large-capacity ammunition feeding 
devices capable of accepting more than ten rounds. This is a 
crucial part of this legislation. These large magazines and 
drums make a gun especially dangerous because they allow a 
shooter to fire 15, 30, even 100 rounds or more without having 
to pause to reload.
    In many instances, like the tragic shooting of our 
colleague, Congresswoman Gabby Giffords, in Tucson, Arizona, it 
is only when the shooter has to change magazines that police or 
others have the chance to take that shooter down.
    The bill also protects the rights of legitimate gun owners. 
It will not affect hunting or sporting firearms. Instead, the 
bill protects legitimate hunters by specifically excluding over 
2,000 specifically named by make and model firearms used for 
hunting or sporting purposes.
    Second, the bill will not take away any weapons that 
anybody owns today. Anyone who says otherwise is simply trying 
to deceive you. Instead, the bill grandfathers weapons legally 
possessed on the date of enactment.
    Finally, while the bill permits the continued possession of 
high-capacity ammunition magazines that are legally possessed 
at the day of enactment, it would ban the future sale or 
transfer of these magazines, including the manufacture, 
importation, or possession.
    Let me address for a moment the charge that assault weapons 
bans such as this are unconstitutional. The original Federal 
assault weapons ban was challenged repeatedly in Federal court 
on every grounds the opponents could come up with, including 
the Second Amendment, the Ninth Amendment, the Commerce Clause, 
the Due Process Clause, Equal Protection, and being a bill of 
attainder. Each and every time these challenges were rejected 
and the ban was upheld, including by the Fourth, Sixth, Ninth, 
and D.C. Circuits.
    As we all know, the Supreme Court subsequently recognized 
the individual right to gun ownership in District of Columbia 
v. Heller. However, that decision clearly stated, and I quote, 
``The right secured by the Second Amendment is not unlimited.'' 
Justice Scalia, the author of that opinion, wrote that, 
``Dangerous and unusual weapons could be prohibited.''
    Following Heller, State assault weapons bans in California 
and the District of Columbia have been upheld as consistent 
with the Second Amendment in People v. James and Heller v. 
District of Columbia, known as ``Heller II.''
    The Assault Weapons Ban of 2013 has received the 
endorsement of major law enforcement organizations, including 
the International Association of Chiefs of Police and the Major 
Cities Chiefs of Police. I am also very pleased that this 
legislation is endorsed by the Conference of Mayors, Mayors for 
Gun Control, and religious, governmental, civic, and other 
groups of officials. So, without objection, I will place the 
list of endorsements into the record.
    [The information appears as submissions for the record.]
    Senator Feinstein. I now yield to the distinguished Ranking 
Member, Senator Grassley, for his opening remarks.

           OPENING STATEMENT OF HON. CHUCK GRASSLEY,
             A U.S. SENATOR FROM THE STATE OF IOWA

    Senator Grassley. I ask the Committee's approval of one 
insert I will have during my remarks.
    Senator Feinstein. So ordered.
    Senator Grassley. Madam Chairwoman, thank you for holding 
today's hearing. The tragedy at Newtown has caused all of us to 
ask what has happened in our society to bring about that 
tragedy and a lot of other like tragedies.
    We are all shocked and horrified by the murder of innocent 
children, and we obviously sympathize with the victims and 
their families. And for one of our witnesses today, Mr. Heslin, 
I want to express my personal deep sympathy for your loss and 
that of your neighbors and the sharing of pain.
    We do not want anything like this to happen again. We are 
determined to take effective constitutional action to prevent 
future catastrophes. And we can make the world safer--safer for 
people on the streets, safer for children in schools.
    Society in recent decades has become less civil. Violent 
video games have encouraged the killing of innocent people for 
sport. These ought to be of deep concern.
    Mental health services are not always up to par. Some 
States are not adequately supplying records of prohibited 
persons to the FBI instant check system.
    We have heard testimony that the records of hundreds of 
thousands of mentally ill people in Arizona, people who are not 
legally allowed to own weapons, have not been provided for 
inclusion in that database.
    A search of an incomplete database that fails to conform to 
existing law does not provide all the safety that the American 
people have a right to expect. Existing prohibitions on gun 
possessions are not enforced as much as they should be. So 
there is much that can be done to enhance safety now that is 
not being done.
    I respect Senator Feinstein's views on this issue. I know 
that your views are very sincere, and the interest that you 
have in banning assault weapons is a very consistent position 
you have taken over the last 20 years.
    I happen to have a different view. S. 150 bans guns based 
solely on their appearance. Some of those cosmetic features are 
useful for self-defense. Others have nothing to do with the 
functioning of the weapons. As a result, the bill would ban 
some guns that are less powerful, dangerous, and that inflict 
less severe wounds than others that are exempt.
    Such arbitrary distinctions and the fact that these weapons 
are commonly used for self-defense raise constitutional 
questions under the Second Amendment. The same questions of 
self-defense arise concerning magazines that enable firing more 
than 10 rounds.
    There are occasions when people think Congress should pass 
a new law. The idea is a particular fix has not been tried 
before, and supporters might think that they have a solution to 
a problem.
    This is not the case with the assault weapons ban. Congress 
passed such a law in 1994. It was on the books for 10 years. At 
the end of those 10 years, in 2004, University of Pennsylvania 
researchers under contract to the Justice Department's National 
Institute of Justice concluded that they ``cannot clearly 
credit the ban with any of the Nation's recent drop in gun 
violence.''
    A study of the Centers for Disease Control and the National 
Research Council also could not demonstrate the effectiveness 
of the ban.
    And just last month, the Deputy Director of the National 
Institute of Justice wrote that, ``A complete elimination of 
assault weapons would not have a large impact on gun 
homicides.''
    By the way, this same National Institute of Justice 
official wrote in the same document that because theft and 
straw purchasers are the largest source of crime guns, 
universal background checks would likely shift offenders even 
more to theft and straw purchases. And he concluded that an 
effective universal background check system depends on 
``requiring gun registration.''
    The assault weapons ban did not prevent the earlier school 
shooting at Columbine, and I am going to put in the record, as 
I just indicated, an article by Officer Rob Young, ``The 
Fallacy of Gun-Free School Zones.'' Officer Young as a child 
survived a school shooting in Stockton, California, in which 
five young students were shot and 26 were injured. He sets out 
in this article his reasoning for opposing gun bans as a victim 
himself.
    [The article appears as a submission for the record.]
    Senator Grassley. When something has been tried and found 
not to work, we should try different approaches rather than re-
enacting that which has not done the job.
    There are vast numbers of gun control laws in our country. 
Criminals do not obey them, but law-abiding citizens do. That 
tilts the scale in favor of criminals who use guns. If gun 
control laws were effective in reducing crime, they would have 
produced lower crime rates by now.
    We should be skeptical about giving the Justice Department 
more gun laws to enforce when the Department is poorly 
enforcing existing laws. The Department's own data show that 
under the Obama administration, Federal weapons prosecutions 
have fallen to the lowest level in over a decade. In fact, the 
U.S. Attorney's Office for the Northern District of Illinois 
brought among the lowest level of firearms prosecutions despite 
the surge of gun crimes in Chicago. Only 25 Federal firearms 
cases were brought to that office in 2011.
    Nationally, only 1 percent of the people, 62 out of 4,732, 
who were denied guns based on background checks were prosecuted 
for illegally attempting to acquire firearms. That is much too 
low of a rate.
    So let us see what can be done and accomplished by 
enforcing laws on the books before adding new ones of 
questionable effectiveness. We will legislate in this area, but 
I think we are going to legislate in an area that deals with 
the issue of reporting to the database people that are not in 
there now and by straw purchasing and trafficking in firearms 
and to make sure that we deal with the mental health issues 
that are involved with these tragedies that we are talking 
about today, and a lot of other tragedies that have happened.
    Thank you, Madam Chairman.
    Senator Feinstein. Thank you very much, Senator. I 
appreciate it.
    Would the witnesses please stand? If you would affirm the 
oath as I complete its reading. Do you affirm that the 
testimony you are about to give before the Committee will be 
the truth, the whole truth, and nothing but the truth, so help 
you God?
    Mr. Walsh. I do.
    Chief Flynn. I do.
    Senator Feinstein. Thank you very much. I will introduce 
the two witnesses on this panel.
    The first is United States Attorney John Walsh. He has 
served as United States Attorney for Colorado since August of 
2010 after he was unanimously confirmed by the Senate. As 
United States Attorney, he was responsible for supervising and 
coordinating the Federal investigation of the mass shooting at 
a movie theater in Aurora, Colorado. Since becoming U.S. 
Attorney, Mr. Walsh was--before becoming United States 
Attorney, Mr. Walsh was a member of the law firm Hill and 
Robbins and a partner in the law firm Holland and Hart. Earlier 
in his career, he served as chief of the Major Frauds Section 
of the United States Attorney's Office in Los Angeles, 
supervising 35 Assistant U.S. Attorneys prosecuting white-
collar offenses.
    I will also introduce at this time Chief Edward Flynn. 
Chief Flynn has a long career of leadership in public safety. 
He has been the chief of the Milwaukee Police Department since 
2008 where he commands an agency of 2,000 sworn officers and 
700 civilians. Previously, he served as Secretary of Public 
Safety in Massachusetts under Governor Mitt Romney, overseeing 
the Massachusetts State Police, the Department of Corrections, 
and Massachusetts Emergency Management Agency. He has also 
served as chief of police in Springfield, Braintree, and 
Chelsea, Massachusetts, and in Arlington, Virginia. Flynn is a 
member of the Police Executive Research Forum, serves on the 
executive committee of the International Association of Chiefs 
of Police, and is a member of Harvard Kennedy School Executive 
Session on Policing, among other positions.
    If the two of you will go ahead, please, and the degree to 
which you can keep the remarks to 5 minutes so there is an 
opportunity for questioning would be appreciated.
    Could you activate your mic? There is a button right there, 
and pull it up as close as you can.

      STATEMENT OF JOHN F. WALSH, U.S. ATTORNEY, DISTRICT
        OF COLORADO, U.S. DEPARTMENT OF JUSTICE, DENVER,
                            COLORADO

    Mr. Walsh. Thank you. Thank you.
    Madam Chairman, Members of the Judiciary Committee, it is a 
privilege to present the views of the Department of Justice on 
the need to protect the American public by limiting access to 
dangerous military-style assault weapons and high-capacity 
magazines.
    Reasonable limitations on these weapons are supported by a 
majority of Americans, and now more than ever. Although the 
Department does not yet have a position on any particular 
legislative proposal in this area, we are confident that the 
ban can be implemented in a way that protects the public 
without interfering with the constitutional rights of law-
abiding American citizens.
    On behalf of the Department of Justice, I want to thank 
you, Senator Feinstein, for your tireless efforts over the 
years to enact legislation to address the plague of gun 
violence in our country.
    Now, Colorado has a history steeped in frontier traditions 
of gun ownership and respect for the Second Amendment. But at 
the same time, Coloradans have witnessed gun tragedies on a 
scale that frankly we could never have imagined. Coloradans 
have been profoundly shaken by the senseless mass shootings at 
Columbine in 1999 and the most recent Aurora theater shooting 
in 2012, as well as the chilling events in Tucson, Newtown, and 
in other communities all around the United States. These events 
remind us that individuals who are intent on inflicting mass 
casualties have ready access to the tools that they need to 
inflict maximum damage in a matter of moments, even seconds.
    Military-style assault weapons and high-capacity magazines 
that hold 20, 30, or, in the case of the Aurora shooting, 100 
rounds of ammunition are both lawful at the Federal level and 
widely available. These weapons are not necessary for sporting 
or self-defense purposes and are properly subject to 
regulation, reasonable regulation, under the Second Amendment.
    As a long-time Federal prosecutor and now sitting U.S. 
Attorney, I share the view of most law enforcement 
professionals that shutting off the flow of military-style 
assault weapons and high-capacity magazines is a top public 
safety priority. Of course, it has to be coupled with other 
sensible measures as well: continued aggressive enforcement of 
the existing firearms laws, new laws to prohibit particularly 
firearms trafficking, and to require universal background 
checks on private firearms transfers, and enhanced background 
checks to identify people who are properly prohibited from 
possessing weapons, such as people with mental illnesses or 
those with felony or domestic violence convictions.
    The types of weapons that the Department believes should be 
banned include firearms that were originally designed to be 
military implements, crafted to be as effective as possible in 
killing human beings. The power, rate of fire, and the 
efficiency of these firearms is the reason that they have 
become weapons of choice for mass shooters, criminal gangs, and 
drug-trafficking organizations.
    We also must eliminate or limit the ability of shooters to 
inflict massive numbers of fatalities in a matter of minutes 
through the use of high-capacity magazines that can hold more 
than 10 rounds. A high-capacity magazine can turn any weapon 
into a tool of mass violence, even a handgun. In fact, the mass 
shootings at Virginia Tech; at Tucson, Arizona; Oak Creek, 
Wisconsin; and at Fort Hood, Texas, all involved handguns using 
magazines with more than 10 rounds.
    High-capacity magazines are not required for defending 
one's home. They are not required for hunting or sport 
shooting. Their purpose is to enable shooters to inflict 
maximum damage on human beings. Frankly, forcing such a person 
to stop and reload can save lives, as was the case in Tucson, 
Arizona, when a 30-round magazine ran out and the shooter had 
to reload, whereupon he was tackled.
    As the United States Attorney for Colorado, I go to bed 
every night in these months since July 2012 wondering whether I 
will be awakened by another pre-dawn call like the one I 
received on July 20th of last year, which notified me of the 
horrifying mass shooting in Aurora; or whether I will receive 
calls like those I have since received from other U.S. 
Attorneys around the country confronting the same sort of 
horror in their own home State.
    I am proud to serve as the United States Attorney for 
Colorado, the State I grew up in. Colorado is a State that 
proudly honors American traditions, very much including the 
ownership and use of firearms as guaranteed by the Second 
Amendment of the Constitution. I share those values. But I also 
share the view of most law enforcement professionals and 
ordinary Americans that reasonable proposals to restrict the 
manufacture, importation, and sale of military-style assault 
weapons and high-capacity magazines are needed to protect the 
American people.
    I urge this Committee to act. Thank you very much.
    [The prepared statement of Mr. Walsh appears as a 
submission for the record.]
    Senator Feinstein. Thank you very much, Mr. Walsh.
    Chief Flynn.

     STATEMENT OF EDWARD A. FLYNN, CHIEF, MILWAUKEE POLICE 
                DEPARTMENT, MILWAUKEE, WISCONSIN

    Chief Flynn. Members of this Committee, thank you very much 
for the opportunity to testify to you today.
    The Police Executive Research Forum, the International 
Association of Chiefs of Police, and the Major Cities Chiefs 
Association all have legislative proposals regarding firearms 
violence generally and assault weapons specifically. As an 
active member of each of these organizations, I support the 
collective wisdom of the chief law enforcement executives in 
the country.
    I have been a police officer for over 40 years, starting as 
a patrolman in Jersey City. I have had the opportunity to lead 
law enforcement agencies in three States for the past 25 years. 
Among the most difficult challenges I continue to face is the 
firearms violence that occurs in our neighborhoods, exacerbated 
by the use of high-capacity magazines and assault weapons.
    Assault weapons are not built for sportsmen. Assault 
weapons are built to inflict violence against humans. Their 
military characteristics are not simply cosmetic in nature. 
These weapons are designed for combat. They are designed to 
quickly, easily, and efficiently cause lethal wounds to human 
beings.
    In 2012, Milwaukee police officers investigated 435 non-
fatal shootings. We confirmed that rifles were used in 185 
crimes in the last year. And since 2010, we have recovered 159 
assault rifles from the streets of Milwaukee.
    In 2011, firearms were the number one cause of death for 
police officers killed in the line of duty. In less than 3 
years, seven of my officers were shot with assault rifles and/
or semiautomatic pistols. In addition to law enforcement 
officers, numerous innocent Milwaukee citizens were injured or 
killed by assault weapons and high-capacity firearms.
    While the mass murders we hear about are horrifying enough, 
we must recognize that our Nation's cities are enduring a slow-
motion mass murder every single year.
    On July 4, 2008, in the city of Milwaukee, three suspects 
fired from gangways into a crowd of 100 people. Two of the 
suspects fired 27 shots from high-caliber assault rifles, 
leaving four innocent people dead in the street.
    On July 7, 2010, a 12-year-old child was playing in front 
of her house when a mass gunman approached and fired ten shots 
from a semiautomatic pistol at the residence, striking the 
child three times.
    And on New Year's Eve, just a few weeks ago, criminals 
fired five high-caliber rounds into a duplex. The rounds 
penetrated interior walls, furniture, and a 7-year-old child. 
Five children between the ages of 3 months and 9 years were in 
the building.
    The notion that innocent, law-abiding citizens will use an 
assault weapon or high-capacity firearm to protect themselves 
is not our experience. We know that the victims and suspects in 
homicides in Milwaukee are typically career criminals. Ninety-
seven percent of our suspects and 82 percent of our victims 
have criminal histories. Furthermore, our experience indicates 
that the vast majority of our home invasion victims are drug 
dealers. They do not need semiautomatic rifles to protect 
themselves.
    Now, the Second Amendment, like every constitutional right, 
is subject to reasonable restrictions and regulation. In 2008, 
the Supreme Court rules the Second Amendment protects an 
individual's right to possess a firearm, but noted that, like 
most rights, the right secured by the Second Amendment is not 
unlimited.
    Now, our system of rights is designed to protect and 
preserve individual rights and the rights of communities. This 
is not an impossible feat. These are not mutually exclusive 
rights. We have an obligation to protect both.
    This bill does not take guns out of the hands of Americans. 
It does not strip Americans of their Second Amendment rights. 
In fact, if we want to be intellectually honest, the issues 
raised here have more to do with commerce than they do with the 
Second Amendment.
    A lot of people make a lot of money selling firearms and 
ammunition. Now, this is not inherently a bad thing, but it can 
tempt us to search for and grasp onto false logic.
    The bill being discussed here today places reasonable 
restrictions on future sales of certain types of firearms and 
magazines. It recognizes the distinction between hunting rifles 
and assault weapons. It allows for the sale or transfer of 
grandfathered weapons after a common-sense background check is 
completed. It promotes public safety. It protects the Second 
Amendment. It prevents the preventable.
    It is time for Congress to pick a side. This time I hope it 
is law enforcement's.
    [The prepared statement of Chief Flynn appears as a 
submission for the record.]
    Senator Feinstein. Thank you very much, Chief.
    For questions, I will have one question and then move on, 
and this question is on Columbine, and I would like to ask it 
of the United States Attorney present here today.
    Two students were murdered, Mr. Walsh, as you know--excuse 
me. Two students murdered 13 people and injured 21. The gunmen 
used a TEC-9 assault pistol and several large-capacity 
magazines, all of which would be banned by this legislation.
    The National Rifle Association has said the solution is to 
have armed security guards at every school. As you may know, 
there were two armed deputy sheriffs at Columbine. Did they 
succeed in stopping the tragedy? Did they try? And what 
happened?
    Mr. Walsh. Senator, with respect to Columbine, if I may, 
obviously the armed guards who were present that day were not 
able to prevent the terrible tragedy that took place. I would 
note that the President's proposal, his package of important 
gun control and gun violence control initiatives, does include 
a portion that gives local school boards the option, and 
hopefully the funding, to have community resource officers 
present in the schools. That is something that individual 
schools may choose.
    However, I think it is fair to say that our experience has 
been that the presence of armed guards in schools is not 
sufficient to prevent the kind of horrors that we have seen 
particularly in the last year.
    Senator Feinstein. Thank you.
    Chief, would you comment on that as well, please?
    Chief Flynn. Well, I think certainly having armed security 
present in any environment offers the potential for protection. 
But there are no guarantees, and the great challenge certainly 
for cities like Milwaukee--we are the fourth poorest city in 
the country. We have a hard enough time keeping the police 
department at the strength it is in. I do not know who is going 
to pay for all of these armed guards. You know, perhaps 
somebody will come up with a grant program to do it. But it is 
an extraordinary cost, and it is no guarantee.
    The fact of the matter is I have got officers out on the 
streets of that city every day trying to prevent violence. If 
they are around the wrong corner, it can break out. If they are 
distracted or doing something else, it can break out. If I have 
got an armed guard in a school breaking up a fistfight between 
two sophomores, he may not be at his post. Certainly, you know, 
every piece of security we engage in can be helpful, but it is 
foolish to think that only security is what we need.
    The great challenge here is can we prevent these tragedies. 
Having an armed guard is a way of fighting off a potential 
assault. But it is not an act of prevention. An act of 
prevention is making it difficult for people to outgun the 
police. An act of prevention is making it difficult for people 
to take military-style assault weapons into schools. That 
should not be easy. It is too easy now. All right? Any amount 
of armed guards in that school still might be, you know, 
outgunned by a committed offender armed with an assault rifle.
    So, you know, there is no single solution to any 
complicated problem. Security is part of a solution. But if we 
ignore doing something about the weapons and implements that 
enable people to slaughter folks 20 at a time, then we are not 
dealing with the root of the problem.
    Senator Feinstein. Thank you, Chief.
    Senator Grassley.
    Senator Grassley. Thank you very much, each of you, for 
your testimony. I am going to start with Mr. Walsh.
    The last U.S. Attorney to testify before the Constitution 
Subcommittee, Mr. Heaphy, stated that the Department supported 
assault weapon legislation ``and will work hard to ensure that 
whatever comes out, if one comes out, is unconstitutional.''
    The Committee is set to mark up a bill tomorrow. What has 
the Department done in the interim to work with Senator 
Feinstein to ensure that legislation is constitutional? And has 
the Department conducted any formal review of the 
constitutionality of the bill?
    Mr. Walsh. Senator, if I could start off--thank you for the 
question. If I may start off by just saying that the Department 
strongly supports the goals of Senator Feinstein's bill to 
enact an assault weapons ban as well as a ban on high-capacity 
magazines, and that we are confident that both an assault 
weapons ban and a high-capacity magazine ban can be crafted 
that is effective and also complies with the Second Amendment.
    As I sit here today, I know that there have been 
communications back and forth with staff. We have certainly 
within the Department technical firearms experts who can assist 
in working through the provisions. But I am not aware of a 
formal opinion, for example, as to the constitutionality of the 
proposal that is before the Committee at the present time.
    Senator Grassley. Okay. A second question to you. When Mr. 
Heaphy testified before the Subcommittee, he stated that he was 
``not familiar enough with the Heller opinion to really give 
you an opinion on'' what level of scrutiny is to be applied to 
address whether an assault weapon ban is constitutional. So I 
hope you are more prepared than he was. So unlike Mr. Heaphy, 
have you actually read Heller? Can you tell us what level of 
constitutional scrutiny that the most important Supreme Court 
decision would apply to an assault weapon ban?
    Mr. Walsh. First of all, Senator, I have read the Heller 
opinion. I want to be careful in indicating, as I did a moment 
ago, that the Department has not issued a formal opinion 
specifically on the constitutionality of the particular 
legislation that is before the Committee.
    Having said that, I think the important thing to keep in 
mind and for the Committee to be keeping in mind with respect 
to the constitutionality of an assault weapons ban is the 
three-part threshold that Justice Scalia in the Heller opinion 
articulated: whether a weapon is in common use at the time the 
legislation is introduced; whether the weapon is a dangerous 
and unusual weapon of the kind that has traditionally been 
regulated and accepted; and then, finally, whether or not the 
legislation under consideration in some manner impacts what is 
really the core of the Second Amendment right, and that is the 
self-defense right.
    If you look at each of those three different thresholds, so 
to speak, I think it is fair to say--and I know that the 
administration is confident--that an assault weapons ban can be 
crafted that successfully and appropriately protects American 
citizens' Second Amendment right. That is something that I am 
certain that we will continue to work with the Committee and 
with Senator Feinstein in the course of this, and I have great 
confidence that we can come up with effective bans that do not 
infringe on those rights.
    Senator Grassley. But to this point, you do not know 
whether the legislation meets that test?
    Mr. Walsh. I think we are confident that the legislation is 
headed in the right direction and that we are able--that we 
will be able to craft specific legislation that does comply. 
And I will tell you that I am certain that the President would 
not sign a bill that he did not believe was in accordance with 
the Second Amendment.
    Senator Grassley. Is an AR-15 in common use? And there are 
over 4 million of them in use today.
    Mr. Walsh. Well, certainly there are quite a few AR-15s in 
use today. There is no question about that.
    On the flip side if you take a look at the percentage of 
AR-15s out of the total number of guns owned by Americans, I 
think you could have a discussion about whether or not an AR-15 
is really a common weapon these days. So that is an issue that 
I think will have to be discussed down the road.
    Senator Grassley. Well, then, let us look at the AR-15 from 
another standpoint. Is it dangerous and unusual?
    Mr. Walsh. Well, I think it is certainly dangerous, and I 
think that the point of today's hearing and really the thrust 
and concern of the Department's position on this subject is 
that an AR-15 is a very dangerous weapon.
    Senator Grassley. On another point dealing with level of 
scrutiny, how about that level of scrutiny that would apply to 
a limitation on magazine capacity?
    Mr. Walsh. Well, the same issue arises, the same three-part 
test. If I could focus on the dangerous and unusual component 
first, when you see magazines of the size that we have seen in 
so many mass shootings--and I will just use the one that is 
closest to my experience, unfortunately, which is the 100-round 
magazine that was used in Aurora in July of 2012. It is 
difficult to see how anyone could conclude that that is not a 
dangerous device when coupled, in particular when coupled with 
an assault weapon like an AR-15. Regrettably, what we saw in 
Aurora--and I want to be careful about this and only speak to 
what is in the public record because there is a pending 
criminal prosecution. What we saw in Aurora was that in the 
very short period of time in which the shooter was shooting, 12 
people died. Of those 12 people, 10 died from wounds inflicted 
by the assault weapon. One died as a result of shotgun wounds, 
and one was hit by both.
    The dangerousness of a high-capacity clip, a 100-round 
clip, I think is hard to deny.
    Senator Grassley. Thank you, Madam Chairman.
    Senator Feinstein. Thank you very much, Senator.
    Senator Durbin.
    Senator Durbin. Thanks, Madam Chairman. Let me start my 
statement and question by thanking you. You have been under a 
lot of heat for your leadership on this issue for a long, long 
time, and the fact that we have endured so many tragedies--
Newtown being the most recent--is an indication that your early 
inclination toward restricting and regulating the use of these 
weapons was certainly necessary to keep America safe. I am glad 
you have continued in that effort.
    Let me address, Mr. Walsh, for a moment some questions from 
Senator Grassley because we did have a hearing before the 
Constitution Subcommittee. It is clear in the Heller decision 
and Heller II that what the Court found to be the core purpose, 
core lawful purpose of the Second Amendment was individual 
self-defense. So restrictions in Heller II on high-capacity 
magazines and assault weapons, the court of appeals held, do 
not effectively disarm individuals or substantially affect 
their ability to defend themselves.
    The Second Amendment, like the First Amendment, does not 
prevent lawmakers from enacting reasonable regulations that do 
not seriously interfere with the core right guaranteed by the 
Constitution.
    So it comes to this point, Mr. Walsh: That man stood in 
that theater in Aurora, Colorado, with a magazine with a 
capacity of 100 rounds, using this assault-style weapon to try 
to kill as many people as possible. Fortunately, it jammed, as 
I understand it, which stopped him from his evil purpose, at 
least in its entirety.
    So I guess the question which Senator Grassley raises is 
whether or not there is a constitutionally protected right 
under the Second Amendment for someone to own and use a gun 
with that capacity to kill. What is your conclusion?
    Mr. Walsh. Well, Senator, if I may, I think one of the 
things that the Department has been very careful about in 
crafting proposals on this subject is to ensure that we are 
taking into account really the seminal decisions in Heller and 
McDonald by the Supreme Court, finding that the Second 
Amendment is, in fact, an individual right.
    But in addressing those two cases and looking at the scope 
of the protections afforded by the Second Amendment, there 
clearly is room for reasonable regulation, particularly of 
dangerous and unusual weapons. And I think it is fair to say 
that the Department believes strongly that limitations on high-
capacity magazines, anything--the Department's position is 
anything over 10 rounds, would be constitutional based on that 
analysis.
    Senator Durbin. So let me ask you the second part of this. 
We have gone through tragedy after tragedy in the city of 
Chicago with gun violence, and I have met with so many 
families--I mean, I cannot tell you how many--who have lost 
innocent children to gun violence, the Hadiya Pendleton family 
being the most recent. But there have been some sense it just 
continues, and it really troubles me--in fact, it angers me--
when these are dismissed as a failure of law enforcement.
    The argument has been made even in this hearing: There are 
adequate laws on the books. Well, why do you not just enforce 
the laws? These things would not happen.
    Take, for example, the issue of straw purchasing. How many 
Federal prosecutions there were of alleged straw purchasers 
really misses the point. How many prosecutions were there, both 
State, local, and Federal? And it turns out that in many 
instances Federal prosecutors are turning to State prosecutors 
and saying you have a better chance to convict at a State level 
with a more meaningful penalty.
    So let me bring that right home to you, to the U.S. 
Attorney's Office. When you are faced with a potential 
prosecution for obvious straw purchasers, what calculations go 
through your mind about whether to pursue that prosecution?
    Mr. Walsh. Well, Senator, if I may, I would like to 
emphasize something that you commented on a moment ago, and 
that is, our work has to be in close cooperation with State and 
local police and State and local prosecutors as well. We really 
need to work as a team. We have to come at the gun violence 
problem as a combined group, and that gives us opportunities in 
many circumstances to choose, in cooperation with a State 
district attorney and a U.S. Attorney, to decide where the 
charges are best brought and where the highest likelihood of a 
conviction and a meaningful sentence may be found.
    So, for example, in the spring of 2011, in Aurora, by 
coincidence, there was a spate of officer-involved shootings, 
and there was great concern in Colorado and in the Denver 
metropolitan area that we were about to embark on a summer of 
violence, so to speak. So in conjunction with Chief Oates of 
Aurora, Chief White in Denver, and other chiefs in the 
metropolitan area, we convened a group of law enforcement, 
State and Federal law enforcement folks, ATF included, and did 
a summer initiative aimed at aggressively and proactively 
reaching out and arresting felons and other criminals who were 
either attempting to get guns or actually buying them.
    At the end of that effort over the course of a summer, 
there were a total of 85 criminal prosecutions and convictions, 
and they were a mix. The majority were Federal prosecutions, 
but there were a substantial number that we took stateside, so 
to speak, because that was the most effective way to approach 
the case in a particular area.
    So to go to your question about trafficking, part of the 
difficulty that we have and part of the reason that we have 
asked the Committee to consider and the President has proposed 
a stronger gun-trafficking law is that currently we are 
basically trying to prosecute those cases under a false 
statement theory. It is 18 U.S. Code 922(a)(6). Those cases are 
difficult, and many times a judge or a jury may see that kind 
of a prosecution as more of a paperwork violation rather than 
something that really implicates public safety.
    Unfortunately, for those reasons, we need to assess--and 
the line prosecutors, the career prosecutors who are making 
these decisions, often say, ``We need to find some other way to 
take this particular bad actor off the street.''
    Senator Durbin. Let me just say--in conclusion, Madam 
Chair--yours is the second testimony under oath within the last 
several weeks that has said exactly the same thing, that this 
is a shared responsibility of prosecution. And I wish those who 
were criticizing what is going on in many States and 
jurisdictions across the country would at least take notice of 
the fact that there are prosecution efforts underway that are 
not assisted by the fact that many of our laws at the Federal 
level are just too weak when it comes to this subject.
    Thank you, Madam Chair.
    Senator Feinstein. Thank you, Senator Durbin.
    Senator Graham.
    Senator Graham. Thank you, Madam Chairman, and I appreciate 
you having this hearing.
    The President urged the Congress to vote on matters like 
this, and I could not agree more. I think we should take 
legislation like this up and get on record and make our 
respective cases. And there is no doubt that Senator Feinstein 
has longly held views on this and very sincere. And to the 
victims of all these shootings, I do not know what to say other 
than I am sorry, and we will have a discussion about this topic 
in light of the world as it is rather than the world we would 
like it to be.
    How many crimes are committed with rifles in terms of 
homicide in the United States? What percentage of all homicides 
are committed by rifles? Do either one of you know?
    Mr. Walsh. Senator, I know that it is a small fraction of--
--
    Senator Graham. In 2011, it was 2.5 percent of U.S. 
homicides were committed by a rifle of any type. Twice as many 
people were killed with bare hands.
    Now, how many prosecutions have you taken upon yourself or 
how many prosecutions have you taken up for failing a 
background check since you have been U.S. Attorney?
    Mr. Walsh. Senator, off the top of my head, I am not aware 
of any that we have done in the District of Colorado.
    Senator Graham. Okay. Well, what I want to do is put into 
the record the Federal background check form that says up top 
you are subject to prosecution if you provide false 
information.
    How many cases have you referred to State prosecutions?
    Mr. Walsh. On that particular----
    Senator Graham. For failing a background check.
    Mr. Walsh. Senator, I do not have a specific number on 
that, but if I may, I do think it is important to recognize 
where our focus is. Our focus is on prosecuting criminal----
    Senator Graham. Because, clearly, your focus is not on 
prosecuting people who fail background checks. Would you agree 
with that?
    Mr. Walsh. Our focus is on----
    Senator Graham. If you have not done any, how could you not 
disagree with that?
    Mr. Walsh. I do not disagree with it, Senator.
    Senator Graham. Okay.
    Mr. Walsh. Our focus is on----
    Senator Graham. And the point is if we are going to expand 
background checks, it looks to me like we ought to start 
enforcing the law that is on the books, because when almost 
80,000 people fail a background check and 44 people are 
prosecuted, what kind of deterrent is that? I mean, the law 
obviously is not seen as that important. If it is such an 
important issue, why are we not prosecuting people who fail a 
background check? And there are 15 questions there. They are 
not hard to understand if you are filling out the form.
    So I am a bit frustrated that we say one thing, how 
important it is, but in the real world we absolutely do nothing 
to enforce the laws on the books.
    Now, let us talk----
    Chief Flynn. Just for the record, from my point of view, 
Senator, the purpose of the background check----
    Senator Graham. How many cases have you made? How many 
cases----
    Chief Flynn. You know what? It does not matter. It is a 
paper thing. I want to----
    Senator Graham. Well----
    Chief Flynn. I want to stop 76----
    Senator Graham. Can I ask the questions?
    Chief Flynn. I want to finish the answer.
    Senator Graham. Well, no. I----
    Chief Flynn. I want to stop 76,000 people from buying guns 
illegally. That is what a background check does.
    Senator Graham. How many AR-15s are legally----
    Chief Flynn. If you think we are going to do paperwork 
prosecutions----
    Senator Graham [continuing]. Owned----
    [Applause.]
    Chief Flynn. You are----
    [Applause.]
    Senator Graham. How many----
    Senator Feinstein. All right. If you----
    Senator Graham. How many cases have----
    Senator Feinstein. Senator, Senator, if you would withhold 
just for a moment.
    Senator Graham. Yes.
    Senator Feinstein. Please.
    Senator Graham. That is fine.
    Senator Feinstein. No expressions one way or another, and 
let us keep this civil. Senator Graham and I just got 
recognized for civility, so I know he will keep it civil.
    Senator Graham. But being civil and being firm in your 
convictions are not inconsistent, are they? I admire what you 
do. I think every cop deserves everything that comes their way 
and then some, because it is a dangerous job. Has your budget 
gone down in the last year?
    Chief Flynn. It has been level funded by the city at great 
expense with great difficulty.
    Senator Graham. In the next decade, do you expect more or 
less money given the budget situation?
    Chief Flynn. Probably less.
    Senator Graham. Yes, I think that is just a reality. So I 
want Americans to know that what this police chief is facing 
almost every other police chief is facing, less money, so you 
may have to defend yourself.
    But back to the question. How many cases have you made for 
somebody violating a background check?
    Chief Flynn. We do not make those cases, Senator.
    Senator Graham. Okay. All right.
    Chief Flynn. We have priorities.
    Senator Graham. Have you ever----
    Chief Flynn. We make gun cases. We make 2,000 gun cases a 
year, Senator.
    Senator Graham. How many----
    Chief Flynn. That is our priority. We are not in a paper 
chase.
    Senator Graham. How many cases----
    Chief Flynn. We are trying to prevent the wrong people 
buying guns. That is why we do background checks. If you think 
I am going to do a paper chase, then you think I am going to 
misuse my resources.
    Senator Graham. I am just trying to ask you a question 
about how the law works today. He has made no cases. You have 
made no cases because you say it is really not within your 
bailiwick. How many cases have you had turned over from the 
U.S. Attorney to prosecute at the State level that you know of?
    Chief Flynn. We all know the answer to these questions, 
Senator. They are self-answering. We do not chase paper. We 
chase armed criminals.
    Senator Graham. Well, I guess the point is, if we do not 
want the wrong people to own guns, which we all agree, then the 
one way to do that is to take the system that is supposed to 
distinguish between the person who should and should not and 
enforce it. I own an AR-15. I passed the background check. Is 
it not really about who has the gun sometimes more than the gun 
itself? And I guess the point I am trying to make, if there are 
4 million AR-15s in this country owned by people like me, I 
think the argument would be that it is in common use. And you 
may not understand why I want to own an AR-15, and I may not 
understand what movies you want to watch. But we are talking 
about trying to solve a problem that has as its central core 
that the people who are committing these crimes should never 
have any gun or one bullet. That is what we all agree on. And 
the best way to prevent crazy people, mentally unstable people 
from getting a weapon is to identify them somehow before they 
murder somebody, they steal it, or they try to buy one.
    Now, I will end on this note. In South Carolina--I have got 
parents from Ashley Hall here, that a lady went into Ashley 
Hall with a .22 automatic pistol, semiautomatic pistol--and 
thank God the gun did not function--who passed a background 
check at the Federal level, who was adjudicated not guilty by 
reason of insanity of trying to kill the President of the 
United States. So before I am told by my colleagues on the 
other side and the two witnesses we need to change our laws, I 
would argue that the law is fundamentally broken when almost no 
one gets prosecuted. And if you can pass a background check 
having been adjudicated mentally insane by a Federal court, I 
think the place we should start is fixing the laws we have 
rather than expanding them and creating a false sense of 
security.
    Thank you.
    Senator Feinstein. Thank you, Senator Graham.
    Senator Whitehouse.
    Senator Whitehouse. Thank you, Madam Chair, and thank you 
very much for your longstanding and passionate commitment on 
this issue, a passionate commitment that is very well founded 
in your own experience.
    I would supplement what my friend Senator Graham said by 
suggesting that we can both clean up and improve the 
enforcement of the existing laws and expand background checks 
and take the necessary steps to make sure that truly dangerous 
and unusual weapons stay out of the hands of those who intend 
to do terrible harm to their fellow citizens.
    And in the context of that, this is our second hearing on 
this subject, and in the last hearing, an array of witnesses 
from both sides appeared, and I was struck that one of the 
Republican witnesses who was testifying contrary to gun 
legislation conceded that these large-capacity magazines do not 
fall within the Heller description. And so I think we are on 
very safe ground constitutionally addressing the high-capacity 
magazines.
    I think it is important that people understand what a 
difference it makes when somebody undertakes to commit one of 
these terrible crimes and they have the additional capacity for 
evil and for harm as a result of the additional capacity in 
those magazines.
    Now, Mr. Walsh, you have obviously looked very closely at 
the facts of what took place in Aurora. I suspect you have also 
looked at the facts of some of the cases that did not occur in 
your jurisdiction.
    To the extent that you can do so, while staying within the 
public record and not getting into grand jury Rule 6(e) or 
other information that is not public yet, could you describe 
for us the events that took place in that movie theater in 
Aurora and in light of the high-capacity magazine that the 
shooter had and what you think might have been different had 
that weapon not existed in your case? And if you have 
information to share about other cases, if you could discuss 
them as well.
    Mr. Walsh. Senator, I want to touch on three different 
instances of mass shooting where I think a high-capacity 
magazine had tragic consequences. I do need to be careful in 
discussing the Aurora theater shooting, and so I am going to be 
very specific.
    Senator Whitehouse. We understand that. You have 
restrictions that arise with your duties, and I appreciate 
that.
    Mr. Walsh. In the Aurora theater shooting, a matter of 
public record is that the shooting that resulted in 12 dead and 
58 wounded took place within the scope of 90 seconds. The fact 
that there were high-capacity magazines in play during that 
time was obviously material.
    In the Newtown shooting, the information I have is that all 
of the shooting took place in less than 4 minutes. Again, in 
that case, high-capacity magazines were used.
    In the Tucson, Arizona, shooting of 2 years ago, or 2 years 
and some, there were high-capacity magazines, and it was after 
a 30-round magazine was expended by the shooter that really, 
frankly, heroic bystanders were able to tackle him and stop the 
shooting. You have to wonder if he had only had a 10-round clip 
whether lives would have been saved. There is certainly 
evidence in that situation to suggest lives would have been 
saved.
    These events happened very quickly. There is no way that we 
are going to prevent people from engaging in these sorts of 
attacks completely. We do not have a crystal ball that enables 
us to see into the mind of an individual who might be bent on 
this kind of horror.
    What we can do and what I think this legislation helps us 
do by limiting and banning high-capacity magazines is we can 
limit the damage and the tragedy and the horrific casualties 
that those people cause when they undertake these sorts of 
actions.
    Senator Whitehouse. And my final question: When you 
consider the amount of damage that was done in these very, very 
narrow time frames--90 seconds or 4 minutes--how realistic do 
you believe that adding armed guards to schools is at 
responding to and intervening in such a sudden and deadly 
attack?
    Mr. Walsh. Senator, I do not want to rule out the potential 
value that a particular local school board might put on having 
an armed guard. There are certainly situations where you can 
imagine it being of assistance. It is hard to see, though, that 
armed guards are going to solve this problem if they are 
confronting someone with the sort of armaments that so 
tragically we saw both in Aurora and also in Newtown. And it is 
worth mentioning, too, the schools are maybe the most horrible 
example of where mass shootings take place, but they are not 
the only places. And unless we are going to have armed guards 
in every----
    Senator Whitehouse. As we know all too well. Thank you very 
much.
    Mr. Walsh. Thank you.
    Senator Whitehouse. Thank you, Chairman.
    Senator Feinstein. Thank you very much, Senator.
    Let me just read the list. According to our rules--I was 
just debating them with the staff--it is Senators Cornyn, 
Klobuchar, Cruz, Franken, Lee, and Blumenthal. And I know 
Senator Blumenthal was actually the first in the room, but the 
staff is telling me that that is not early bird. Early bird is 
you have to be here at the same time the testimony begins. So I 
make that apology to you. I am aware----
    Senator Blumenthal. No apology necessary, Madam Chairman. I 
am here for the duration.
    Senator Feinstein. Good. Thank you.
    Senator Cornyn, you are up next.
    Senator Cornyn. Thank you, Madam Chairman. Thank you to the 
witnesses. And I know the families who have been affected by 
gun violence have our sympathy and our desire to find some way 
to ameliorate or mitigate violence in our society. But I think 
we are actually interested in what would work.
    First of all, Mr. Walsh, we appreciate your service as U.S. 
Attorney, and you are here today speaking on behalf of the 
Department of Justice.
    Mr. Walsh. That is correct.
    Senator Cornyn. Would you define what an assault weapon is?
    Mr. Walsh. From the point of view of the Department, I 
think there are a couple of critical considerations. I realize, 
of course, that the legislation includes a very elaborate 
definition of particular aspects of assault weapons which would 
qualify them for an assault weapons ban, and I do not mean to 
comment on those specifically. I do want to focus on some of 
the attributes that I think are most important and make these 
weapons so dangerous.
    First of all, frequently we are talking about a weapon--or 
generally we are talking about a weapon that is a rifle and, 
therefore, has a high muzzle velocity capable of doing an 
enormous amount of damage when the round hits a victim.
    Secondly, they are capable of very high rates of fire.
    And, third, they are also capable of accepting a very high 
capacity magazine.
    There are other features, obviously, that I know are 
covered in the bill, for example, a pistol grip, a threaded 
barrel. I believe, in fact, a grenade launcher attachment is 
included. Those are all things that are not merely cosmetic 
but, in fact, have some effect on the lethality of a weapon. 
But the three points that I just made to you as to the things 
that really make these weapons the most dangerous are I think 
where the Department's concerns lie.
    Senator Cornyn. And you are aware of the fact that under 
this legislation, were it to pass, none of the current so-
called assault weapons that are in people's possession would be 
affected, correct?
    Mr. Walsh. That is correct. There is no confiscation of 
weapons or anything of that sort contemplated by anyone.
    Senator Cornyn. Do you have any idea how many there are in 
the possession of law-abiding Americans?
    Mr. Walsh. I have seen various estimates. The number that 
was being discussed in this hearing earlier today was 4 
million. I have seen 3.5 million, in that range.
    Senator Cornyn. So there would be 3.5 or 4 million of these 
weapons that would be prohibited prospectively under this 
legislation that would still be in the possession of American 
citizens?
    Mr. Walsh. That is correct, Senator. Now, you know, the 
fact that we cannot completely address this issue immediately 
does not mean that over time a ban on new weapons coming into 
the stream of commerce is not going to have the effect of 
improving the safety of the American people.
    Senator Cornyn. Well, I know there is a lot of debate 
within the Department of Justice whether the previous assault 
weapons ban had any impact whatsoever. As a matter of fact, 
there are some--I will just quote from part of the 1997 DOJ 
study. It said, ``The evidence is not strong enough for us to 
conclude that there was any meaningful effect, i.e., that the 
effect was different from zero.''
    So if we are actually interested in what is going to solve 
the problem of gun violence in America, I think we would want 
to do something that was not tokenism or symbolic. We would 
want to try to figure out how to actually solve the problem, if 
we can.
    Could you identify any of the recent tragedies that we have 
seen, whether it is Aurora or Tucson or Newtown, where those 
tragedies would have been averted if this legislation had been 
in effect?
    Mr. Walsh. Senator, I cannot tell you that they would have 
been 100 percent totally averted. I can tell you with some 
confidence that the casualty levels would have been lower if 
the perpetrators did not have the kind of high-capacity 
magazines that they possessed and the kind of assault weapons 
that in a number of these cases were used.
    But if I may go back to your earlier point, Senator, on the 
question really of the effectiveness of the 1994 assault 
weapons ban, part of the difficulty there is that the ban has 
not been adequately studied, and I think the conclusions that 
you were referring to, which I think accurately depict some of 
the more recent conclusions, are as a result of not having the 
data necessary to fully analyze the results.
    There were a couple things that came out that I think are 
very important and which would strongly support a new assault 
weapons ban. One is----
    Senator Cornyn. My time is just about out. If you will 
permit me----
    Mr. Walsh. I apologize.
    Senator Cornyn. And hopefully we will continue the 
conversation.
    Mr. Walsh. Thank you, Senator.
    Senator Cornyn. So here is the quandary that I find myself 
in. The Department of Justice's record of actually enforcing 
current gun laws, you will forgive my saying, is abysmal. For 
example, people who lie on background checks are not being 
investigated or prosecuted with any sort of uniformity or 
reliability. As a matter of fact, out of 76,000 denied 
background checks the FBI referred to the Bureau of Alcohol, 
Tobacco, and Firearms, a verdict or plea was reached in 13 
cases. Then the 2008 law that Congress passed, which encouraged 
the States to send to the Federal Government adjudicated 
mentally ill persons that could be included on the background 
check, that has been a very spotty record of compliance by the 
States. So we have people who have been adjudicated mentally 
ill who will not show up on a background check because that 
2008 law has not been adequately enforced.
    And then there is this, and then I will quit, Madam Chair: 
We see a number of States, like Connecticut, for example, that 
have much more restrictive gun laws where some of these 
tragedies have occurred, and they have not stopped it. And you 
even have countries like Mexico where you have had 60,000 
people killed as a result of drug cartel activity. In other 
words, criminals are not stopped by restrictions on law-abiding 
citizens. And it is just not clear to me that passing more laws 
that will not be enforced enthusiastically by the Department--
and you look at the studies that have been done on the previous 
assault weapons ban, and no evidence that it actually had any 
impact whatsoever. You say it needs more study, and that is 
fine. I would be interested in what the study reveals. But just 
call me skeptical that passing this assault weapon ban would 
have any real impact given the fact that criminals are going to 
continue to get guns and the lack of enforcement by the 
Department.
    Thank you, Madam Chairman. You have been very indulgent.
    Senator Feinstein. Thank you very much, Senator.
    Mr. Walsh. Madam Chairman, may I respond? I know that time 
is up.
    Senator Feinstein. Yes, you certainly may.
    Mr. Walsh. In response to your points, Senator, I have just 
a couple of, I think, really important things that need to be 
said here today.
    First of all, I could not disagree more strongly that the 
Department of Justice is not aggressively enforcing existing 
firearms laws. We spend an enormous amount of time, effort, 
energy, talent, skill, and, frankly, sleepless nights enforcing 
those laws.
    If you take a look at 2012, the total number of criminal 
prosecutions brought by the Department of Justice was in the 
vicinity of 85,000. Of those, 12,000, one in seven, involved 
firearms charges.
    In Colorado, a couple weeks ago we did an assessment, a 
similar assessment for 2012, and in Colorado, close to one in 
five of the criminal prosecutions that we bring are cases 
involving firearms charges.
    Now, what are those cases? Those cases are those in which a 
criminal actually has and uses a firearm. We have limited 
resources. I know everyone in this room understands that the 
Federal Government, just like State and local authorities, has 
limited resources to address these things.
    As a prosecutor, and as the prosecutors in my offices 
consider cases, we go for the worst of the worst. And the worst 
of the worst cases are the ones in which a bad guy has actually 
got a gun. That is where we focus our attention.
    Now, I acknowledge that paperwork violations, lying on 
forms, are also Federal crimes. But part of the thing that I 
think all of us need to keep in mind is the fact that 80,000 or 
76,000 people in 2012 were rejected as part of the firearms 
check and not able to buy a firearm, that in and of itself is a 
victory. That system is working.
    If you go back to when the Brady law firearms check first 
came into effect in 1998, I believe, there have been over 1.5 
million potential purchases rejected because a person is 
prohibited, either by a prior felony or other problems. That is 
a record of success. We should be proud of that. But there is 
also no way that the Department of Justice could have 
prosecuted all 1.5 million people who were rejected over that 
15-year purpose.
    My point, Senator, is this: I am an enforcement guy. I care 
about enforcement. I completely agree with you that we need to 
be enforcing the existing firearms laws effectively, 
aggressively, and in a way that protects the public. But I can 
tell you, when I think about the people in my office who work 
weekends and nights, send me e-mails at 2 and 3 o'clock in the 
morning because they are working so hard to enforce these laws, 
I just have to tell you I disagree with you. These are line 
folks, they are career folks. They are not people who are 
driven by any of the politics that go on. They care deeply 
about their----
    Senator Cornyn. Madam Chairman, if I can just say, I 
applaud you, Mr. Walsh, for your commitment to law enforcement. 
I used to be in your line of work, and I admire people who put 
their lives at risk every day to either enforce our laws or 
investigate crimes and prosecute those to the fullest extent of 
the law.
    But I do not believe--well, let me just ask, Madam 
Chairman, if I can ask that the record that I was referring to 
of the Department of Justice's record of enforcement for 
weapons prosecutions and background checks prosecutions could 
be made part of the record, please.
    Senator Feinstein. So ordered.
    [The information appears as a submission for the record.]
    Senator Cornyn. Thank you.
    Senator Feinstein. Senator Klobuchar.
    Senator Klobuchar. Thank you very much, Madam Chair. Thank 
you, both witnesses, for your work in law enforcement. Our 
neighboring State of Wisconsin, Chief Flynn, and also in 
Colorado, I think all three of our States share a common belief 
that hunting and recreation is an important part of the culture 
of life in our States. It is certainly important in Minnesota.
    I have supported the Heller decision and was on the amicus 
brief for the McDonald decision, but I thought you, Chief 
Flynn, did a good job of explaining how still those decisions--
and you, Mr. Walsh, those decisions anticipated that there are 
reasonable rules and regulations. And it is our job, working 
with you, to figure out what those are. And I think that is 
what this hearing is about.
    The first thing that I think there is some agreement on is 
that felons should not have guns, and you had a good discussion 
there with Senator Cornyn, so I am not going to go into that. 
As a former prosecutor, that was one of my top priorities, to 
enforce those laws, to work with the U.S. Attorney's Office.
    A second one that is emerging is the problem with the 
background checks. I think most gun owners even agree that we 
should have some kind of background checks.
    One of the problems right now is the private sale loophole. 
The data from the FBI show that the number of women killed with 
a firearm by an intimate partner is 34 percent lower in States 
that have closed the private sale loophole than in States that 
do not regulate such sales.
    Do you think that this would be helpful, Mr. Walsh, in 
domestic abuse cases to close that loophole?
    Mr. Walsh. Senator, thank you for the question.
    Senator Feinstein. Your mic is off. Thank you.
    Mr. Walsh. Sorry. Senator, thank you for the question. You 
know, one of the most effective and important elements of 
existing Federal law is a provision that prohibits people with 
domestic violence misdemeanor as well as felony convictions 
from owning a weapon, and the reason for that is the statistics 
show that in cases of particularly habitual domestic violence, 
the presence of a gun in the home can be deadly. And too many 
of those cases result in the death of the abused spouse or the 
abused intimate partner.
    One of the areas where we need to have an invigorated 
existing database and then an expanded database to cover all 
sorts of private transactions is exactly that area, because 
right now all too often those misdemeanor offenses may or may 
not show up accurately in the database, depending on how a 
State is reporting them, and we need to tighten that up in many 
instances.
    We also need to make really strong efforts to ensure that 
particularly habitual domestic violence offenders are not able 
to obtain a gun from a friend or through a straw purchase or 
things of that sort, and that is why tightening up and 
extending the background check to cover private transactions 
could be of great assistance.
    Senator Klobuchar. Another area I think most people would 
agree on would be the trafficking issues, and I will submit 
some questions on that for the record. But there is difficulty 
for law enforcement to investigate and prosecute those who 
traffic firearms, and I think most people would agree that is 
an area where it would be reasonable to make some regulations.
    We have the issue of the mental health records and some of 
the juvenile issues. We actually in Minnesota had a guy that 
killed his parents, got out--this just happened last year--and 
they found him with a bunch of weapons because there was an 
error in how the background checks were made and what was in 
the records and those kinds of things. And he had actual notes 
about Newtown when they found him with those guns. And so I 
just believe that more work can be done there, and there should 
be public support for that.
    My last question would be of you, Chief Flynn. We have 
heard a lot of statistics thrown around about the effectiveness 
of the assault weapon ban. You have been in law enforcement for 
40 years. What was your personal experience? And did you 
observe a change when the law was first enacted in 1994 when it 
sunsetted in 2004?
    Chief Flynn. Well, thank you, Senator, for the question. 
Listen, you know, back in the years when I was in graduate 
school, I had to endure research and statistics classes. They 
made my hair hurt. But I did learn a thing or two, and one of 
the things I learned was the difference between correlation and 
causation. And what we have is a study in 2007 that studied the 
Brady bill. It clearly identified correlations. It could not 
identify causations. Why? Because it was written by Ph.D.s, and 
Ph.D.s can never decide anything.
    The fact of the matter is, during the life of the Brady 
bill, the number of assault weapons used in violent crimes 
declined by two-thirds. Now, we did not do a control study. We 
did not do a study where we gave out AK-47s and then compared 
and contrasted with a State in which nobody had an AK-47. Then 
we would know. Instead, we took a leap of faith. We made this 
assumption, bold as it was, that keeping high-capacity firearms 
and military-style weaponry out of the hands of criminals might 
reduce violence. And violence was reduced.
    Now, the police did a lot of things. We changed our 
strategies. We embraced community-oriented policing. We 
embraced accountability systems such as ComStat. We worked very 
hard. We worked closely with the D.A.s. We worked closely with 
the community. We put a lot of guys in jail. And we started 
recovering fewer assault rifles.
    But can I show a causation? No. Is there a correlation? 
Yes. And so it all depends how you want to spin the data, and 
that is a cottage industry all by itself.
    Senator Klobuchar. Thank you very much, Chief Flynn.
    Senator Feinstein. Thank you very much, Senator Klobuchar.
    Senator Cruz.
    Senator Cruz. Thank you, Madam Chairman. I would like to 
begin by thanking the victims of violence who have come here 
and the members of law enforcement. I would like to thank the 
members of law enforcement for your service on the front lines. 
And to the victims of violence, I express the deepest 
sympathies that law enforcement was not able to prevent the 
horrific crimes you suffered.
    Mr. Heslin, I have two little girls. I cannot imagine the 
suffering you are experiencing now. I have spent much of my 
adult life in law enforcement working to deter violent 
criminals and to ensure that those who commit horrific crimes 
of violence face the very strictest of punishments. And I am 
sorry for each of the victims here today who lost loved ones 
that the system did not work to protect your loved ones and 
prevent the loss of life.
    This is an issue that touches on a lot of emotions, and I 
would suggest an approach that, in my view, should guide the 
Senate's treatment of it, which is an approach that we should 
target our efforts to violent criminals, to those who commit 
horrific crimes of violence, and we should not target our 
efforts to needlessly restricting the constitutional liberties 
of law-abiding citizens.
    In the area of gun control, I think there are a variety of 
proposals that are discussed. Some, in my judgment, the 
evidence demonstrates, are cosmetic and they allow politicians 
to say we are acting, but the evidence does not support that 
they have any efficacy. Others I think present a real threat of 
intruding on the liberties of law-abiding citizens.
    I want to start, Mr. Walsh, with respect to the assault 
weapons ban, and in earlier questioning you said that there had 
been not enough study on the assault weapons ban. Of course, a 
very similar law was in effect for roughly a decade. And the 
Department of Justice has funded at least three studies of 
whether that bill had any positive effect. In 1999, the DOJ 
study concluded that the assault weapons ban ``failed to reduce 
the average number of victims per gun murder incident or 
multiple gunshot wound victims.''
    In 2004, the National Institute for Justice concluded that 
the assault weapons produced ``no discernible reduction in the 
lethality and injuriousness of gun violence.''
    And then in 1997, the study that was already discussed 
likewise concluded that there was no evidence to say any 
meaningful effect different from zero.
    Are you aware of any compelling empirical data to the 
contrary? We have got three studies funded by the Department of 
Justice that concluded the prior ban had no effect. Are you 
aware of empirical data to the contrary?
    Mr. Walsh. Senator, let me say two things in response, and 
I think it is an important question to ask.
    First of all, my understanding of what those studies said 
is that the statistical analysis was inadequate to establish an 
effect, not that it had statistically established no effect. It 
is a fine point, but it is an important one, because Dr. Koper, 
who led the studies in each of those instances, most recently 
came out with a January 2013 sort of update description of his 
studies and thoughts for the future, and in that indicated that 
he thought that an argument could be made that over time, if 
the assault weapon ban had continued past 10 years and had been 
continued to be coupled with a high-capacity magazine ban, that 
the combination of those two things might have had as much as a 
5-percent effect.
    Senator Cruz. If I understand your answer correctly, you 
did not point to any empirical data that demonstrate that it 
had any effect whatsoever on violent crime. Is that correct?
    Mr. Walsh. Not conclusive evidence that it had an effect on 
the overall----
    Senator Cruz. Inconclusive, I mean, any empirical data?
    Mr. Walsh. Well, I think that the empirical data that Dr. 
Koper has referred to, you could say--he said he believed that 
there was certainly a suggestion that on the margin there was 
an impact. But it was not necessarily statistically significant 
that he could tell from his work.
    Now, having said that, there are two areas--there are two 
areas that I think are important to keep in mind statistically, 
if I can risk that. One is that there is certainly good 
evidence that assault weapons are used disproportionately in 
attacks with multiple victims and victims with multiple wounds. 
And then, secondly, there is also good evidence to suggest that 
assault weapons are used disproportionately on attacks on law 
enforcement officers. And I think those two points, perhaps 
even standing alone, would justify that we proceed with an 
assault weapons ban.
    Senator Cruz. Mr. Walsh, there was earlier discussion about 
causation and correlation.
    Mr. Walsh. That is correct.
    Senator Cruz. According to the BJS, from 1993 to 2001, 
which roughly corresponds with the assault weapons ban--not 
perfectly but roughly--there were an average of 611 homicides 
per year with rifles while the assault weapons ban was in 
effect. In 2010, the number of homicides with rifles was 358, a 
little more than half as much. In 2011, it was 323. That is 
without the assault weapons ban in place.
    Would you agree that that data does not suggest that the 
assault weapons ban had any significant efficacy in reducing 
violent crime?
    Mr. Walsh. Well, I think that if we go back and look at the 
studies, the conclusion of Dr. Koper and his colleagues was 
that there were multiple factors playing into that. 
Fortunately, over that same period of time, we were seeing 
overall a reduction in violent crime in the United States, 
which also impacted it.
    So the simple answer is I do not have a statistical 
response for you. I am not an expert in that area. I think it 
is fair to say that the evidence of effectiveness of the 
original assault weapons ban was mixed, but there were some 
areas in that, as I have already mentioned, where the 
Department of Justice believes there was a positive effect in 
reducing the total number of victims, and if the ban were 
extended and not made to sunset after 10 years, that over time 
we could see an improvement in public safety.
    Senator Cruz. My time has expired, but I hope as the 
hearing proceeds we can discuss how the Department of Justice 
and law enforcement can target violent criminals directly 
rather than either legislation that the data suggests would 
have no material effect or legislation that would strip law-
abiding citizens. Instead, I would suggest we should be 
targeting violent criminals because that is how we actually 
will protect people's lives, which is everyone's objective 
here.
    Thank you.
    Senator Feinstein. Thank you, Senator Cruz.
    Senator Franken.
    Senator Franken. Thank you, Madam Chairwoman, and thank you 
for your leadership on this difficult and enormously emotional 
issue on every side.
    I have been doing a lot of thinking and a lot of soul 
searching the last several months. I have spent a lot of time 
traveling around Minnesota, talking with my constituents about 
this issue. And what I am hearing is that people want us to 
take action to reduce gun violence and to make our communities 
safer, but they want us to do it in a way that honors the 
Second Amendment and respects Minnesota's culture of 
responsible gun ownership. So there is a balance to be struck 
here.
    I have focused on mental health issues while continually 
underscoring how important it is not to stigmatize mental 
illness. The vast majority of people who are mentally ill are 
no more violent than the general population. But if we are 
going to make mental health a part of this, let us make it more 
than just a talking point. Let us really do something to 
improve the treatment and the access to treatment for children 
and for adults.
    But today we are talking about assault weapons. To prepare 
for this hearing, I went back and read the record from the last 
two hearings. One of the arguments we have heard is that 
assault weapons and large-capacity magazines are needed for 
self-defense. A witness at our first hearing gave us a list of 
more than 20 instances in which guns were used in self-defense. 
But I have not seen any evidence that any of those cases 
involved an assault weapon or a large-capacity magazine.
    Rather than presenting real cases as evidence for the 
record that these weapons are needed for self-defense, 
witnesses and members of this Committee have asked us to 
imagine hypothetical situations where someone needs an assault 
weapon or more than 10 rounds for self-defense against multiple 
attackers.
    Now, sure, I can imagine those hypothetical cases, but I am 
not sure what value that holds. But I do not have to imagine 
someone using a 30-round magazine, or several, to kill 20 
children, because that happened.
    I do not have to imagine a deranged man using a 100-round 
clip to kill 12 people at a movie theater. That happened in 
Aurora.
    I do not have to imagine a madman firing 33 rounds 
uninterrupted at a grocery store parking lot, killing six 
people, including a little girl, and wounding 13 others, 
including a Member of Congress, because that happened. It 
happened in Tucson.
    And I do not have to imagine a madman with an extended clip 
slaughtering six people at a sign factory, because that 
happened in Minneapolis.
    As a Senator, I have a responsibility to make informed 
decisions. We owe it to all Americans to address this complex 
and emotional issue with a healthy regard for reality and 
fidelity to the truth.
    So if we ban assault weapons and large-capacity magazines, 
will we save lives? That is the real question. It is not an 
easy one. And we have been discussing this data.
    In previous hearings, we were actually told that a 1997 
independent study commissioned by the Clinton Justice 
Department, one that was just discussed, we were told that it 
proved that the last assault weapons ban had no effect on 
crime, that it proved it.
    Mr. Walsh, your testimony addresses that study as well as a 
subsequent DOJ study that was published in 2004. Do those 
studies prove, as we have been told, that the assault weapons 
ban was ineffective? Or do they show something else?
    Mr. Walsh. Senator, if I may begin with the earlier 1990s 
study, actually the initial conclusion in that study is that 
there was potentially up to a 6.7-percent reduction in gun 
murders as a result of the assault weapon ban and the high-
capacity magazine ban.
    In subsequent analysis of that, the authors concluded that 
they were not certain that that was a statistically significant 
correlation. In other words, they were trying to be thoughtful 
and very precise about the amount of evidence that they had.
    Senator Franken. This was done only on one year's data, 
because it was in 1997, but they said, ``Our best estimate is 
that the ban contributed to a 6.7-percent decrease in total gun 
murders between 1994 and 1995 beyond what would have been 
expected in view of ongoing crime, demographic, and economic 
trends.'' That is a quote, and sometimes you can cherrypick 
quotes. I think this is very important. Because you cannot 
prove that something is statistically valid, that does not 
prove that it did not happen. And, in fact, unless you 
cherrypick sentences from this--you can cherrypick others.
    So an honest reading is not that this proved this did not 
have efficacy. It did not prove that at all, did it?
    Mr. Walsh. No, it did not. And, Senator, if I could add two 
other points that I think are relevant to this discussion, 
since the assault weapons ban expired in 2004, a study by the 
Police Executive Research Forum in 2010 found that 37 percent 
of police departments reported an increase in criminals' use of 
assault weapons again since the time of the ban expiring, and 
as well as a 38-percent increase in the use of those weapons 
also using high-capacity magazines--in other words, those with 
more than 10 rounds.
    So there certainly is evidence subsequent to that that the 
prevalence of these weapons and their use in crime is rising, 
which is, I think, something that we should be concerned about 
as well.
    Senator Franken. Thank you. I yield back.
    Senator Feinstein. Thank you, Senator Franken.
    Senator Lee.
    Senator Lee. Thank you very much, Madam Chairman, and 
thanks to both of you for being here with us today and for your 
service to our country. I appreciate what you do.
    You know, we have all been horrified by acts of mass 
violence, including and especially those that have occurred in 
recent memory. I do not think there is a person here in this 
room, I do not think there is anyone watching on television 
these proceedings who does not want to find a way to end or at 
least diminish incidents of gun violence.
    Obviously, there are a number of factors at play in our 
society and in our culture that have created an environment in 
which gun violence has regrettably persisted. But I worry at 
times that if we rush too quickly into enacting gun ownership 
restrictions, that could cause some problems:
    First, because it could give the American people some basis 
for concluding that Congress can somehow put an end to this 
just by legislating. Experience in this area and in others has 
taught us that we cannot fix all of society's ills through 
legislation, and there has been some suggestion made today, 
some indication by the evidence, that there is at least a mixed 
record, there is at least an absence of certain proof as to the 
efficacy of gun ownership laws in the past.
    Secondly, and perhaps more importantly, I worry about what 
some of the gun control measures that we have been discussing 
might do to the rights of law-abiding citizens. We have in 
society some people who will obey the law regardless of what 
the law says, and that is good. We have some people who are 
likely to disregard the law, regardless of what it says. 
Fortunately, in our society those in the former category have 
tended to predominate, and that is what allows us to have a 
society that generally lives according to the rule of law.
    But we always have to be on the lookout for the law-
abiding, because whenever we enact laws, it is those people 
whose liberty is diminished. It is those people whose options 
are constrained by what we do here. And so I focus a lot on 
those people. And this hearing provides us with an opportunity 
to discuss whether and to what extent the proposed Assault 
Weapons Ban of 2013 will help alleviate gun violence without 
diminishing the rights of those people.
    So, Mr. Walsh, I would like to talk to you about this a 
little bit. In your written testimony, you state that magazines 
with more than 10 rounds are not necessary for self-defense 
because the majority of such shootings occur at close range. Am 
I understanding your written testimony correctly in that 
regard?
    Mr. Walsh. Certainly that is included in the testimony, 
Senator.
    Senator Lee. So let us assume that you are correct that the 
majority of self-defense shootings do occur at close range. 
What might this mean for those minority of instances in which 
law-abiding citizens might use a gun in self-defense in longer-
range situations? Can we ignore the impact that any laws we 
adopt might have on persons who need more than 10 rounds to 
legitimately and lawfully defend themselves and their families 
or the needs of those people who might need a longer-range 
approach to self-defense?
    Mr. Walsh. Senator, I think it is a good question, because 
obviously self-defense is the core of the Second Amendment 
protection, and we all acknowledge that and want to honor it. 
Having said that, I have a couple of thoughts.
    One, part of the reason that most self-defense incidents 
occur at close range is that when you have an assailant who is 
at longer range, a potential victim has other options. In other 
words, you can leave the scene, you can call in for assistance 
and things of that sort, and the immediacy of the situation is 
not as dangerous. And I would defer to the police chief sitting 
by my side on the details of that. So that is point number one, 
that I think it is important to keep in mind there is a reason 
why the close-range incidents are far more common.
    Secondly, the evidence that I have seen suggests that the 
vast majority of self-defense incidents involve one or two 
shots being fired, if any, one or two shots being necessary.
    I will tell you that, in my personal experience as an 
Assistant U.S. Attorney and now as a United States Attorney, I 
am not aware of any specific self-defense incident in which a 
potential victim to defend him- or herself needed to fire more 
than 10 shots.
    Now, hypothetically, I agree with you there could be a 
circumstance under which that took place, and in that scenario, 
I agree with you there is that potential marginal effect on 
that person's ability to defend themselves. I am just not aware 
of those instances actually happening.
    Senator Lee. Okay, and I appreciate that. I do think that--
and I see my time is running out. Let me just point out really 
quickly that there was a 1995 study on the use of guns in self-
defense. And I understand that study concluded that in almost 
half of the instances in which a victim was attacked and 
thereafter used a gun in self-defense, there were at least two 
attackers, and that in nearly 25 percent of those situations, 
there were three or more attackers. So even at close range, 
would it not be helpful, if not critical, in those instances--
which, granted, may well be a minority of the instances--would 
that not be helpful to have an ammunition magazine that had 
more than 10 rounds?
    Mr. Walsh. Senator, if I--I am not sure I am familiar with 
the study you are referring to, but I do know there were 
statistics that were going around that related not to armed 
assaults--in other words, assaults with firearms--but assaults 
by assailants that were not all armed. And I would need to 
discuss that, need to have a chance to look at that.
    But to answer your question directly, the fact is that if 
someone were confronted with three assailants armed with 
firearms, I suppose there is a hypothetical scenario under 
which having more than 10 rounds in a magazine would be of some 
marginal assistance. But, again, as I say, I am not aware of 
any such instance actually happening where someone has required 
more than 10 shots.
    Senator Lee. Okay. Thank you.
    Senator Feinstein. Thank you very much, Senator Lee.
    I would really like to thank the two panelists. I did not 
use all my time in the questions, and I want to make three 
brief points.
    The intent of the bill in 1994 to 2004 was to dry up supply 
over time. The sunset had to be added. We came through the 
Senate with a bare margin, 51 votes on a motion to table. The 
sunset was critical to getting those votes.
    Point two, gun manufacturers took the two characteristics 
test and crafted weapons to get around it, i.e., the thumbhole 
stock.
    And the third point is that this is really an important 
issue of public policy, and these weapons can also, by virtue 
of their construction, be held at the hip and spray-fired 
without aiming, and that makes them just lethal, with the 
increased velocity, as you pointed out, in a rifle.
    Chief Flynn, you are really a cop's cop. I really 
appreciate your frankness. I thank you for being here. The 
cities you served are very lucky.
    And, Mr. Prosecutor, you have fantastic retention. I really 
thank you for your service to our country.
    Oh, Senator Blumenthal, take some extra time. I am so 
sorry.
    Senator Blumenthal. Madam Chairman, thank you. I know that 
in the Senate, freshmen Senators are supposed to be seen and 
not heard. But I am happy to be heard today.
    [Laughter.]
    Senator Feinstein. You got it.
    Senator Blumenthal. I want to begin by thanking you, Madam 
Chairman, for your courage over many years, your consistent 
advocacy for this assault weapon ban. You have been so stalwart 
and strong. And the simple blunt fact is that this issue was 
thought to be politically untouchable 2 months ago. We would 
not be here today without the horrific Newtown tragedy.
    I want to begin by asking my fellow citizens of 
Connecticut, most particularly the members of the Newtown 
community, Sandy Hook Promise, the Newtown Action Alliance, as 
well as the families who had victims to please stand so that we 
can thank you publicly for your courage and your strength in 
this extraordinary historic moment. Thank you.
    Senator Feinstein. Let us give them a round of applause.
    [Applause.]
    Senator Blumenthal. I want to thank my colleague--my 
colleague Chris Murphy was here earlier. He had another hearing 
so he had to leave, but he has been a very active member of 
this team. You know, there was extraordinary evil in Newtown on 
December 14th of last year. But there was also extraordinary 
heroism, and part of it was, in fact, the law enforcement 
officers who went to the school, charged into the building, and 
thereby prevented even more deaths because the shooter turned 
the gun on himself when he knew that police were on the scene.
    So I want to begin by thanking our law enforcement officers 
who are on the front lines every day. We have two of our most 
distinguished in the country. Thank you for being here, U.S. 
Attorney Walsh and Chief Flynn, and for your eloquent and 
powerful testimony that.
    And it was also the courage and strengthen of the Newtown 
community that has rallied together and taken an active 
advocacy position in favor of these kinds of measures.
    And the statisticians and the Ph.D.s and the lawyers may 
debate the numbers, but the second simple blunt fact is that 
some or all of those 20 beautiful children and 6 great 
educators would be alive today if assault weapons has been 
banned along with high-capacity magazines. And some of the 
victims in Tucson would be alive today, including 9-year-old 
Christina-Taylor, as Captain Mark Kelly testified so powerfully 
just a short time ago in the place where you are sitting now.
    The fact is that we need a comprehensive strategy. Nobody 
here is saying that an assault weapon ban or prohibition on 
high-capacity magazines will end gun violence, but we are 
choosing to light a candle rather than curse the darkness. And 
the fact is, Chief Flynn, I would agree with you totally that 
what we see in our Nation is mass murder committed as a result 
of gun violence. I differ only to say that it is not slow 
motion. In fact, it is escalating. It is rapid-fire mass 
murder. Nineteen hundred people have been killed since Newtown 
as a result of gun violence.
    And so I want to begin by asking you, Chief Flynn--and I 
think you have alluded to it--what is it that leads you to feel 
the men and women on your force are outgunned by these assault 
weapons?
    Chief Flynn. For the first 20 years of my police career, I 
carried a six-shooter, and that was plenty. That was the 
standard weapon for American law enforcement for over 100 
years. And in the last 20 years, we have been in an arms race. 
I only the year before last had to start arming my officers 
with assault weapons in the cruisers to start to protect 
themselves. That is not where we were pre-Brady.
    Senator Blumenthal. And, in fact, their body armor will not 
protect them against assault weapons at close range, will it?
    Chief Flynn. No. We have to constantly upgrade the body 
armor and offer them the opportunity to wear metal plates. You 
know, our challenge--if I may take one moment, I had the 
opportunity of--on September 11, 2001, I was the police chief 
in Arlington, Virginia. That is where the Pentagon was. And 
what I learned that day, that if this country takes 3,000 
innocent victims, it takes major steps to alter itself. And 
nobody has boarded an airplane the same way since. That weapon 
of mass murder is no longer used in this country because we 
have taken steps to keep it out of the hands of those who would 
kill us.
    Now, I have wondered frequently in the last decade how many 
people have to get murdered in a mass murder for it to be 
enough. I have been wrong time after time after time. But I am 
a grandpa, I have got little kids at home. Is 20 babies enough 
to say these implements should not be so easily distributed? 
That is what we are asking for. When was that gun bought?
    [Applause.]
    Senator Blumenthal. I know that the Chairwoman will perhaps 
indulge me one more question.
    Senator Feinstein. I will.
    Senator Blumenthal. You know, I am a law enforcement guy, 
too. I was a State law enforcement person and had your job, 
United States Attorney Walsh, in Connecticut some years ago. 
And I want to say nobody in law enforcement ever thinks we are 
doing enough. Nobody ever says, ``Well, we can go home and stop 
trying to do better.''
    So as much as we may agree with you that the United States 
Department of Justice and local and State police forces are 
trying to enforce these laws as aggressively as possible, I 
think you need more resources and you need criminal background 
checks so that you can know, as Senator Graham and Senator Cruz 
said, how to keep these weapons, all weapons, out of the hands 
of people who should not have them--criminals, domestic 
abusers, the severely mentally ill.
    Would you agree that the criminal background check 
expansion to private sales as well as possibly ammunition sales 
are a way to enforce the existing laws--they are on the books 
right now, that can be enforced better so that you know before 
those weapons are purchased, along with trafficking 
prohibitions, that we can keep those guns out of the hands of 
people who should not have them?
    Chief Flynn. The majority of my illegal firearms are bought 
legally, not stolen. They are either bought through straw 
purchasers or they are bought outside of the regular licensed 
firearms dealers. Six of my officers were shot with guns that 
were legally bought from the same firearms dealer. That is 
intolerable. So, obviously, the purpose of background checks is 
to keep guns out of the hands of criminals, not to create, you 
know, millions of additional prosecutions.
    The point is those checks work, and if we can extend them 
to the gun shows, we can keep guns out of the hands of 
criminals as well as the criminally insane.
    Senator Blumenthal. And perhaps we can stop them from 
buying ammunition after they have those guns. Would you agree?
    Chief Flynn. Certainly.
    Senator Blumenthal. Thank you.
    Would you agree, United States Attorney Walsh?
    Mr. Walsh. Absolutely, Senator. I think those are critical 
steps that will help us, frankly, keep the American people 
safer.
    In addition, I would note that after Columbine, the State 
of Colorado tightened up its own background check to close the 
so-called gun show loophole and also really to invigorate the 
extent to which records on mental illness came into the system, 
and that has proved to be effective. Of course, it cannot stop 
everything, as we saw last July in Aurora.
    Senator Blumenthal. Thank you very much.
    Thank you, Madam Chairman.
    Senator Feinstein. Thank you very much, Senator, and, 
again, I apologize.
    This completes the panel--oh, excuse me. Senator, you had 
one question?
    Senator Grassley. One question for Mr. Walsh, to learn from 
the experiences in your State. On September 21, 2011, the ATF 
issued an open letter to all Federal firearms licensees 
regarding transfer of firearms and ammunition to individuals 
authorized by State law to use marijuana for medicinal 
purposes. This open letter states that users of medical 
marijuana, even if authorized by State law, are prohibited from 
possessing firearms or ammunition under 18 U.S.C. 922(g)(3) 
because they are considered unlawful users of controlled 
substances under Federal law. And then because your State 
recently passed Amendment 64, I come to this question--or three 
questions, but really dealing with just that subject. So I will 
give you all three.
    Will you prosecute individuals who use marijuana in 
Colorado and possess firearms and ammunition as a violation of 
Section 922? Why or why not?
    And, lastly, as the top Federal law enforcement officer in 
Colorado, you are charged with enforcing Federal law. Have you 
prosecuted anyone for violating Section 922 based solely upon 
medical marijuana use?
    Mr. Walsh. Senator, with respect to the first question as 
to whether or not we would prosecute people involved with 
medical marijuana for possessing firearms, the answer is yes, 
we have. In fact, we have a case out of Boulder County in which 
an individual was actually engaged in a grow of marijuana and 
possessed a variety of weapons, including some very nasty 
things called ``street sweepers,'' and we prosecuted that 
individual.
    With respect to whether we would end up prosecuting 
individuals solely because they had a firearm and were a user 
of medical marijuana, a medical marijuana card, I think we 
would have to look at those cases individually before we made 
any decision to determine whether that was the right allocation 
of our resources. I say that in part because the guidance we 
have received from the Department is that, generally speaking, 
it is not the best use of our limited Federal resources to go 
after individual patients who may be using medical marijuana.
    Senator Grassley. Thank you very much for your answer.
    Senator Feinstein. Thank you very much. I would excuse this 
panel, and thank you very much.
    I would ask the next panel to please come forward. Senator 
Blumenthal will introduce the first two witnesses.
    Please take your seats. We would like to begin. Senator 
Blumenthal, at your pleasure.
    Senator Blumenthal. Thank you. Thank you, Madam Chairman, 
and again my thanks for having two of our witnesses from 
Connecticut: Dr. Begg and Neil Heslin. I do not know, Madam 
Chairman, whether you want to administer the oath.
    Senator Feinstein. I will. In the interest of time, I was 
going to----
    Senator Blumenthal. I would be happy to introduce them 
before, if you would like. Whatever you would like.
    Senator Feinstein. All right. If the witnesses would stand 
and raise your right hand, please? Do you affirm that the 
testimony you are about to give before the Committee will be 
the truth, the whole truth, and nothing but the truth?
    Mr. Heslin. I do.
    Dr. Begg. I do.
    Professor Johnson. I do.
    Mr. Hardy. I do.
    Ms. Adams. I do.
    Mayor Nutter. I do.
    Senator Feinstein. Thank you. Please be seated.
    Senator Blumenthal. Thank you both for being here, Mr. 
Heslin and Dr. Begg. I am honored to introduce you to this 
Committee.
    When I went to the Sandy Hook fire house on the day of the 
shooting within hours of its occurrence, I went as a public 
official, but what I saw was through the eyes of a parent. And 
I saw the aftermath and impact of unspeakable and unimaginable 
horror and evil. But there was also a lot of heroism that day, 
not the least from gentlemen like yourself and their families 
who were there--in your case, Dr. Begg, to help save lives; and 
in your case, Mr. Heslin, eventually to learn about the loss of 
your son.
    To introduce you first, Mr. Heslin, I know on December 14th 
you lost your son, Jesse, who was 6 years old and who attended 
the Sandy Hook Elementary School. I know that you would not 
want to be here right now. But I know also, as you have told 
me, and Dr. Begg has, from the beginning of this tragedy and as 
recently as Sunday night and yesterday, that you want to be 
here to try to make sure that Newtown never happens again. And 
I am grateful, and I know the Committee is, for your being 
here. We have much to thank you for, Neil, for being here 
today. Your courage is an inspiration to me and I hope will be 
an inspiration to this Committee.
    Dr. Begg, I know you were born and raised in Connecticut, 
and you decided to go into medicine after your father passed 
away following a medical mistake. While studying at Johns 
Hopkins Hospital, you were voted the top resident, I 
understand, for community emergency room doctors, and during 
your residency there at Johns Hopkins, you also did a clerkship 
at the nationally recognized Maryland Shock Trauma Institute. 
And then you went to work at Fort Drum to oversee 800 doctors 
and 200 physician assistants at the Danbury Hospital, and you 
are currently president of the medical staff at Danbury 
Hospital. I know you were in Newtown that day at the Danbury 
Hospital where you were the ER physician on duty when some of 
the Sandy Hook children were brought to the hospital and to the 
emergency room. I thank you for your efforts on that tragic day 
and for testifying today.
    Thank you, Madam Chairman.
    Senator Feinstein. Thank you, Senator Blumenthal.
    Mr. Heslin, welcome. We are very honored to hear your 
comments.

         STATEMENT OF NEIL HESLIN, NEWTOWN, CONNECTICUT

    Mr. Heslin. My name is Neil Heslin. I am Jesse Lewis' dad. 
Jesse was brutally murdered at Sandy Hook School on December 
14th, 20 minutes after I dropped him off.
    This picture is a picture that was taken when Jesse was 6 
months old. It was our first Christmas together.
    That picture over there is a picture last Daddy's Day, 6 
months before his death.
    That picture up here is his class picture from last year. 
That picture was on the Port Jefferson Ferry.
    Jesse was the love of my life. He was the only family I had 
left. It is hard for me to be here today talking about my 
deceased son, but I have to. I am his voice. I am not here for 
the sympathy and a pat on the back, as many people stated in 
the town of Newtown. I am here to speak up for my son.
    There are many changes that have to happen to make a change 
effective: mental health issues, better background checks, bans 
on these weapons, bans on high-capacity magazines. They all 
have to come together, and they all have to work effectively. 
It has to be done simply. Common sense tells you that.
    I watched that video this morning. That is a dangerous 
weapon, and anybody that can deny or argue that is not being 
honest.
    Jesse was 6\1/2\ years old. His birthday was June 30th. In 
2006 he was born. It was the happiest day of my life. The 
saddest day of my life was December 14th. It was the worst day 
of my life.
    I waited in that fire house until 1 o'clock in the morning 
from 12:30 until I knew Jesse was confirmed dead.
    Senator Blumenthal was there, Governor Malloy, the other 
Congressmen from Connecticut, along with the police and the 
first responders. I have a bond with them that will last a 
lifetime.
    No person should have to go through what myself or any of 
the other victims' families had to deal with and go through and 
what the town of Newtown had to go through and is dealing with.
    The morning of December 14th, we stopped at Misty Vale 
Deli. He got his favorite sandwich--sausage, egg, and cheese on 
a hard roll. And he ordered me one. He would always do that. I 
would get a coffee. Jesse would get what he called a coffee, 
but it was a hot chocolate.
    We proceeded to the school. It was 9:04 when I dropped 
Jesse off by the school clock. Jesse gave me a hug and a kiss 
at that time and said, ``Good-bye. I love you.'' He stopped and 
he said, ``I love Mom, too.'' That was the last I saw Jesse as 
he ducked around the corner.
    Prior to that, when he was getting out of the truck, he 
hugged me and held me. I can still feel that hug and the pat on 
the back. He said, ``Everything's going to be okay, Dad. It is 
all going to be okay.''
    And it was not okay.
    I have to go home at night to an empty house without my 
son. It is something that never should have happened in an 
elementary school. People argue about the Second Amendment. 
Well, the Second Amendment says ``a well regulated militia,'' 
to bear arms, safe and free, freedom of state. It has not been 
well regulated, and it is not being well regulated.
    This bill that Senator Feinstein has proposed I read over. 
It is not about taking the weapons from the owners of them. It 
is putting a ban on the manufacturing and curbing the sale of 
them. It is not hurting the sportsmen. It is not hurting the 
gun owners now.
    I fully support the Second Amendment, and I fully support 
the sportsmen and the hunters. I grew up with firearms. I 
started skeet shooting with my father when I was 8 years old 
competitively. In my younger teen years, I was State champion. 
I achieved the level of marksmanship with rifles. I have a 
broad knowledge of weapons, including military weapons. I do 
not participate in shooting or hunting anymore. Times have 
changed in my life, and I had a young boy I devoted my life to.
    Ironically, the same day as Jesse passed away, 5 days 
before that my mother passed away.
    Jesse had an interest in the military. Jesse had an 
interest in guns, asked a lot of questions about them. Strange 
enough, the night before he perished, we were at Big Y. He was 
looking at a survival magazine or a gun magazine. In that 
magazine there were three weapons on one page. One was a 
Bushmaster, one was a Glock, and one was a Sig handgun. I had 
to go back the following day to look at that. But I quickly 
looked at it that night. It was an assault rifle and the two 
handguns.
    He asked me about those weapons, and I explained them to 
him, what they were used for and their capability. The 223, it 
was a high-velocity, long-range cartridge. It was used by the 
military. And his response was, ``Is it a weapon or gun that is 
used to kill people?'' And I said, ``Yes, Jesse, that is what 
it is used for.''
    Jesse had a BB gun. I got it for him for Christmas a year 
ago. I taught him gun safety. I looked over his back. And he 
was proficient with it, and he knew all the gun safety 
precautions. He could recite them to you the same way as I 
could when I was his age.
    It just breaks my heart that something like that could 
happen in this country and in an elementary school. I walked 
past the Capitol this morning, the Capitol Police 3 feet from 
me when I walked by them. What is he holding? An assault weapon 
protecting our Nation's capital, protecting us today. And a 
weapon with similarity to that being a Bushmaster was brought 
into an elementary school in Sandy Hook, Connecticut, and 
killed 20 students and 6 educators.
    I just cannot believe that that could happen. Those weapons 
were used on the battlefields of Vietnam. They were used in the 
Persian Gulf; they were used in Afghanistan and Iraq. The sole 
purpose is to put a lot of lead on the battlefield quickly. 
That is what they could do, and that was proof right there, 
that video this morning. They have the capability to be held 
and used to produce rapid fire.
    I asked the question a month ago what purpose those served 
in civilians' hands or on the street. I have not received an 
answer yet, but they did blurt the Second Amendment. It was not 
about the Second Amendment. I defend the Second Amendment. And 
I want to see that upheld and regulated, and it has not been.
    When that was written almost 300 years ago, we did not have 
these weapons we have today, and the technology. They has 
muskets and cannons. I think it was in 1934 when the ban was 
put on machine guns, and the regulation. We have not had a mass 
killing with a machine gun since. I feel these so-called 
assault weapons that have certain characteristics should fall 
in that category and be banned.
    [The prepared statement of Mr. Heslin appears as a 
submission for the record.]
    Senator Feinstein. Thank you, Mr. Heslin. Thank you very 
much.
    Dr. Begg. And then I will introduce the remaining four 
witnesses.

       STATEMENT OF WILLIAM V. BEGG, III, M.D., DIRECTOR,
EMERGENCY MEDICAL SERVICES, WESTERN CONNECTICUT HEALTH NETWORK, 
                      NEWTOWN, CONNECTICUT

    Dr. Begg. Chairman Feinstein, Senator Grassley, Senator 
Blumenthal, and Members of the Committee, thank you for the 
opportunity to speak and testify. My name is Bill Begg. I am a 
board-certified emergency room doctor, and I trained at the 
Johns Hopkins Hospital.
    What is my inspiration for coming today? Well, I am the 
parent of three Newtown students. I am a grammar school track 
coach in Newtown. I am with a couple grassroots organizations, 
including the United Physicians of Newtown and the Newtown 
Action Alliance. Our group of physicians is over 100 doctors 
from Newtown that all are on the same platform. Some are 
Republican, some are Democrat, but we all have the same 
platform about limiting assault rifles and gun violence.
    I am the EMS medical director for Newtown that was in 
direct contact with all my providers in the field that day. I 
am a friend of some of the families that lost loved ones, and I 
was an ER doc that was on shift on December 14th.
    So what is my goal? What is my goal in the next 5 minutes? 
My goal is to somehow convince you, Senators, that banning 
assault rifles and real gun control measures that you will 
hopefully enact will make a difference. Research since 1996 has 
been severely limited. I had to go overseas to look at some 
real data, some empirical data to see what the real answers 
are.
    In Dunblane, Scotland, in 1996, a 43-year-old shooter got 
off 109 rounds. He killed 16 little children and teacher, and 
he injured another 27 kids and 4 more teachers.
    In Australia, in the same year, a 28-year-old with an AR-15 
assault rifle killed 35 people and injured another 23.
    The damage caused by an assault rifle compared to a regular 
gun is horrific, and many of those folks do not even show up in 
my ER because their injuries are so bad, there is nothing 
salvageable. They do not even make it to my ER. At the end I 
have a video to show you.
    What did those legislators do across the world, in 
Australia and the United Kingdom? They enacted real gun 
legislation. They banned assault weapons. Did the legislation 
work right away? No, actually it did not work right away. It 
did not. But where do they stand today in 2010? As far as mass 
murders go, in the U.S. we have had over 20 mass murders. In 
the United Kingdom, one. In Australia, zero.
    Before 1996, in Australia, there were a dozen mass murders 
in the previous 20 years. And as far as gun deaths and 
empirical data, we have had over 30,000 deaths each year in our 
country. In Australia and the United Kingdom, as of 2010, with 
their gun legislation and the banning of assault weapons, they 
have each less than 300 deaths a year. That is 1 percent. Gun 
legislation and banning assault rifles, it takes a lot to come 
to fruition, but it works.
    If you actually own a gun in your home because you think it 
is going to make you safer, let me give you some real stats.
    There is something called femicide, ladies getting killed. 
Women are 5 times more likely to be killed by their spouse if 
there is a gun in the house. That is a real study.
    I am sorry for being loud, but this is emotional for me.
    If you want a gun in the house, you are 5 times as likely 
to die of suicide. And if you own a gun, you are 20 times as 
likely to die from unintentional gun death. Countries that ban 
assault rifles and have gun control measures do lower the 
chance of gun death for their citizens.
    In summary, what I am asking you to consider is a ban on 
military-style assault weapons; a ban on high-capacity 
magazines, especially if they have more than 10 bullets; a ban 
on semiautomatic rifles; require background checks for all gun 
purchases; and please, please, could we do some real gun 
research in this country? In this country.
    What galls me is those who say let us really focus on 
mental health are the same ones who are saying, well, we need 
to have a conservative approach and balance the budget and cut 
programs. What are the first programs that are cut? Mental 
health.
    So what I am asking you to do is not even--not even add 
programs. I am asking you to just not even cut the mental 
health programs that are out there already. Allow me as a 
medical doctor, when I see a patient and I talk to them about 
the risks of excessive alcohol or tobacco use or safe sex, 
morbid obesity, seat belts, texting and driving, can I please 
talk to them about the risk of gun violence? Please?
    There is a public service announcement right now that says 
you are 23 times more likely to die if you are texting and 
driving. Why can I not have a public service announcement 
saying the same relative to assault rifles and gun ownership?
    I am not against the Second Amendment. If you go through 
the proper channels, I do respect your ability to own a gun. 
But not an assault rifle.
    I want to recognize the valiant efforts of the first 
responders from the greater Newtown area. Thank you for your 
service.
    And to the families whose loved ones actually made it to 
the ER, we all tried our best.
    To you lawmakers, my mom and my dad were both Connecticut 
State representatives, and I said to my mom, I said, ``Mom, why 
don't you think when it is so common sense, why don't you think 
they will change?'' And she said, ``Well, you know, they have 
their party lines, and they have their lobbyists, and they may 
not be senior.'' And I said, ``Well, do you think this one time 
they will actually do us right?'' And she said, ``Yeah, I think 
so. I think this time they will.''
    People say that the overall number of assault weapon deaths 
is relatively small, but you know what? Please do not tell that 
to the people of Tucson or Aurora or Columbine or Virginia 
Tech, and do not tell that to the people in Newtown.
    [Applause.]
    Dr. Begg. This is a tipping point. This is a tipping point, 
and this is a public health issue. Please make the right 
decision.
    Thank you for your time, and if there is extra time, there 
is a small video on the difference between injuries--there is 
on the difference between a gunshot with a handgun and an 
assault rifle. But thank you for your time otherwise.
    [The prepared statement of Dr. Begg appears as a submission 
for the record.]
    Senator Feinstein. Thank you very much, Doctor.
    I will now introduce the following four witnesses:
    Nicholas J. Johnson is a law professor at Fordham. He has 
held that position since 1993. He has published articles on the 
subject of firearms regulations and environmental law. Prior to 
Fordham, he practiced law as an associate with Morgan, Lewis 
and Bockius, served as vice president and co-owner of Westar 
Environmental Corporation, and was Of Counsel for Kirkpatrick 
and Lockhart. He taught at two colleges as a professor of legal 
studies. He is the author of two books on gun ownership.
    I will introduce David Hardy. He is an attorney in private 
practice in Tucson. He has litigated and authored friend-of-
the-court briefs in several firearms-related cases. He spent 10 
years as a career attorney with the Office of Solicitor for the 
United States Department of the Interior, where he represented 
the United States Fish and Wildlife Service. Prior to his 
service in the Government, he was assistant general counsel for 
the National Rifle Association.
    Sandy Adams is a Representative elected in 2010 to 
represent Florida's 24th District as a United States 
Representative, where she served for a term of 2 years. 
Previously, she worked in the Florida State House of 
Representatives for 4 years and had served over 17 years with 
the Orange County Sheriff's Office as a deputy sheriff and 
investigator.
    And, finally, Mayor Michael Nutter. He is the mayor of 
Philadelphia and the president of the United States Conference 
of Mayors. As the leader of the official nonpartisan 
organization of cities with populations of 30,000 or more, 
Mayor Nutter speaks on behalf of 1,300 mayors nationwide. 
Before he was elected mayor of Philadelphia in 2008, he spent 
15 years on the Philadelphia City Council.
    We will begin with you, Mr. Johnson. Welcome. Do you want 
to activate your mic? Thank you.

  STATEMENT OF NICHOLAS J. JOHNSON, PROFESSOR OF LAW, FORDHAM 
              UNIVERSITY, SCHOOL OF LAW, NEW YORK,
                            NEW YORK

    Professor Johnson. Thanks for inviting me.
    First I should say that sitting through the last two pieces 
of testimony, I will just affirm the instinct that when one 
listens to the victims of events like this, the impulse is to 
basically give them anything they want, and I understand that 
impulse. And I guess what I would say to people who support the 
bill, which I have critiqued here, is that mine is a counsel of 
despair, unfortunately.
    My testimony is drawn from an extensive analysis of this 
question that I published in 2009. My core point here is that 
the classifications established by Senate bill 150 are 
unsustainable under the lowest level of constitutional review, 
that they fail to meet even the rudimentary rational basis 
requirements.
    To sustain the category of guns that the bill claims are 
exceptional and must be banned, we must compare that category 
to the baseline of guns that are deemed unexceptional, many of 
which are included in the bill. The characteristics that define 
the prohibited class are all objectively measureable, and by 
those objective measures, the classification I think is 
unsustainable, and I have detailed this in Appendix A, which 
includes the article that I mentioned.
    The primary characteristic that drives the prohibited 
category is multi-shot capability. The AR-15, which we have 
talked about in detail, with its common 30-round magazine will 
fire thirty .22-caliber, typically 55-grain projectiles, one 
with each pull of the trigger.
    Now compare guns that are in the non-prohibited class. Take 
the common repeating shotgun, either pump or semiautomatic. 
Hundreds of guns of this type are on the bill's list of 
prohibited firearms. There are tens of millions of guns of this 
type in the civilian inventory. In 12 gauge configuration, with 
a 3-inch, 00 buckshot load, any of these guns will fire fifteen 
.33-caliber, typically 60-grain projectiles with a single pull 
of the trigger. There are a variety of other loadings that will 
push this calculation upward or downward, but this example 
makes the point.
    Additionally, this broad category of repeating shotguns can 
be continuously reloaded without disabling the gun. That is an 
attribute that the prohibited class does not exhibit. So the 
downtime, while the shooter changes magazines, that has been 
offered as a justification for the bill's 10-round magazine 
limit is actually circumvented by this class of shotguns that 
are on the non-prohibited list.
    Another claim that supposedly distinguishes the prohibited 
class of guns is that they are equipped with pistol grips or 
barrel shrouds, and those things it is claimed, contribute to 
un-aimed, spray firing, or firing a cloud of projectiles 
without aiming. This actually better describes shotgun 
technology. The shotgun actually does fire a cloud of 
projectiles that spreads as it moves down range.
    Now, these basic points are confirmed by the United States 
Army assessment of whether the shotgun in battle is consistent 
with the laws of war. A version of this analysis appears in a 
1997 article published in the Army Lawyer. Some excerpts I have 
included in my testimony.
    The Army assessment relies centrally on an early analysis 
by Brigadier General Samuel T. Ansell, whose evaluation 
continues to form the position of the United States as to the 
legality of the shotgun in combat. General Ansell's critique 
was prepared actually in response to a formal complaint by the 
Germany Government in World War I, charging that the Model 1897 
pump shotgun, then in use by U.S. troops, was so destructive 
that it violated the laws of war. General Ansell's response was 
this:
    ``The shotgun . . . finds its class or analogy as to 
purpose and effect, in many modern weapons. The dispersion of 
the shotgun pellets is adapted to the necessary purpose of 
putting out of action one or more of the charging enemy with 
each shot of the gun; and in this respect it is exactly 
analogous to shrapnel shells . . . or a machine gun discharging 
a spray of bullets.
    The 1997 assessment goes on to describe a British analysis 
of the combat shotgun which reports that ``To a range of 30 
yards, the probability of hitting a man-sized target with a 
shotgun was superior to all other weapons.'' On this measure it 
is superior to the assault rifle--and this is the assault rifle 
as technically described that is fully automatic firing, an 
intermediate cartridge, and superior to the submachine gun 
firing a five-round burst.
    When gauged against these objectively measurable 
characteristics, the rhetoric that defines the prohibited class 
in Senate bill 150 not only inaccurately describes the class, 
but more accurately describes guns that Senate bill 150 
classifies as less dangerous and places on a companion list of 
good guns. That renders the bill, I am afraid, incoherent, and 
that renders the bill unable to pass rudimentary rational basis 
analysis.
    My detailed testimony goes into far more depth with regard 
to other characteristics of this type.
    My overall assessment here is this: Guns are dangerous. All 
of them are dangerous. As a class, they are exceptionally 
deadly, particularly when deployed against unarmed and 
defenseless people. And on that score, I fear that the 
conversation we have been having about this particular type of 
gun is a distraction from the broader issues.
    [The prepared statement of Professor Johnson appears as a 
submission for the record.]
    Senator Feinstein. Thank you very much, Mr. Johnson.
    Mr. Hardy.

             STATEMENT OF DAVID T. HARDY, ATTORNEY,
          LAW OFFICES OF DAVID HARDY, TUCSON, ARIZONA

    Mr. Hardy. Thank you, Madam Chairman and Members of the 
Committee.
    I think Professor Johnson has ably demonstrated that S. 150 
cannot pass rational basis scrutiny because it simply 
arbitrarily discriminates among different things.
    I would point out in addition that S. 150 would mark the 
most extensive gun ban in the history of this Republic. The 
1994 ban listed 19 brands of firearms that could not be made. 
S. 150 lists over 150.
    The 1994 ban banned firearms with a pistol grip that 
protruded below the rest of the firearm. S. 150 simply bans any 
gun with a pistol grip. And I would point out that virtually 
every--the only reason I cannot say ``every'' is because I have 
not examined every one--but every rifle and shotgun, 
semiautomatic made today has a pistol grip. It is not a 
separate pistol grip. It is just the area that your hand fits 
around makes it more comfortable to fire. So essentially this 
would ban any semiautomatic long arm that has a replaceable 
magazine.
    The categories seem to be focused mostly on style, as they 
say, ``military style,'' but the fact of the matter is no one 
would go to war with a semiautomatic AR-15 shooting one shot 
per trigger pull. They would go to war with an M-16 that fires 
fully automatic and three-round bursts.
    The price of the creation of the assault rifle, which is 
fully automatic, the price for it was that they had to drop the 
power of the cartridge by 50 percent because you cannot fire a 
full-powered military round at full automatic without getting 
the heck beaten out of you by recoil. So in the case of the AR-
15, we dropped the power of the military rifle from 2,400 foot 
pounds of energy to slightly over 1,200, a 50-percent decline, 
which is average for that type of thing. When you go back to 
semiautomatic, turn it into a semiautomatic, what you have is 
simply a firearm of half military power.
    Then if we look at the various ban features, apart from the 
halving of the power, there is the pistol grip. There have been 
statements I have heard that the pistol grip is somehow meant 
to promote unaimed fire from the hip. That only happens in 
Rambo movies. The military would not be issuing firearms to 
people that are conducive to being fired from the hip without 
aiming because essentially you cannot hit anything in that 
mode. And if you stopped to think about the angle of the pistol 
grip, it would actually make it harder to fire from the hip 
than from the shoulder, because military does not want you 
firing from the hip.
    The threaded barrel, I cannot see any connection between a 
threaded barrel and use in criminal conduct. What could it be? 
If we talk flash suppressors, I can tell you I have personally 
verified with an AR-15 in a darkened range that there is no 
flash, even if you take the flash suppressor off. That is 
mainly for M-4s and M-16s where you are firing full automatic, 
you get the barrel nice and hot, and then you can see a flash.
    I would agree with Dr. Begg on one issue, which I promised 
my friend Clayton Cramer to raise. Clayton has written a book 
on the deinstitutionalization of the mentally ill and 
essentially what a disaster it has been for this country. He 
cites studies indicating that about a thousand homicides a year 
are committed by people who have been diagnosed mentally ill 
and gone off their meds. I would agree with Dr. Begg, 
therefore, that we have to treat the mentally ill, especially 
the dangerous ones, get them off the street where they can be 
treated, and that we are not doing a fraction enough of this at 
the moment. We can either try to get the violent mentally ill 
out of commission, or we can try to create a world in which it 
is safe to have violent mentally ill people on the street. I 
suggest the latter is simply impossible a task.
    I think that one of the arbitrary features of S. 150 is 
illustrated by a comparison of two firearms--the AR-15 and the 
Mini 14. Both shoot the same cartridge, the 223. Both take 20- 
to 30-round magazines. Both shoot at the same rate of fire, one 
shot per trigger pull. Both weigh about the same and are about 
the same length. The AR-15 is classed under the bill as one of 
the prohibited forms of firearm. The Mini 14 is listed 
specifically under the sections which exempt it from any 
possible ban. Yet the two firearms are functionally identical. 
The only difference is one of them has a wooden stock and the 
other has a plastic one.
    I think, as Professor Johnson pointed out, to pass any 
heightened level of scrutiny, there has to be a relationship 
between the statute--a provable relationship between the 
statute and an important social goal, and it must not 
unnecessarily impact lawful exercises of rights. I think we can 
see that S. 150's categories have no relationship to criminal 
use and that they exempt or control firearms of exactly the 
same type.
    I would point out one last thing, insofar as burdening 
rights. There was only one Adam Lanza. There was only one 
Seung-Hui Cho. But S. 150 attempts to deal with their cases, 
their violent cases, by regulating the other 300 million 
Americans' conduct of their--exercise of their constitutional 
rights. S. 150's arbitrary standards fail any test for 
constitutionality and, for that matter, for wise social policy.
    Thank you.
    [The prepared statement of Mr. Hardy appears as a 
submission for the record.]
    Senator Feinstein. Thank you very much, Mr. Hardy.
    Representative Adams, welcome.

   STATEMENT OF HON. SANDY ADAMS, A FORMER REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Ms. Adams. Thank you, Madam Chair. And before I begin, I 
would like to state that my thoughts and prayers go out to the 
families, first responders, and the community of Newtown.
    I am here as a mother, grandmother, former deputy sheriff, 
and former legislator. This issue is not political to me, but 
it is personal.
    I spent over 17 years as a law enforcement officer in 
Orange County, Florida, during which time I had the unfortunate 
experience of looking down the barrel of a rifle with the 
assailant's finger on the trigger knowing that if that trigger 
were pulled, I would not be here today. I have also experienced 
the fear that grasps you when the laser sight from a 9mm Desert 
Eagle puts a dot on you.
    I tell you this so that you know that my comments here 
today are not based on any political motivation but on my 
personal beliefs and experiences.
    As someone with a law enforcement background, I naturally 
consider whether a legislative proposal made under the banner 
of public safety would truly contribute to that worthy 
objective.
    Concerning the proposal to ban a wide variety of 
semiautomatic rifles, shotguns and handguns, and ammunition 
magazines that hold 11 or more rounds, I think it is an easy 
question to answer.
    When Congress approved the 1994 ban, it required that a 
study of the ban's effectiveness be conducted. That study found 
that ``the banned weapons and magazines were never involved in 
more than a modest fraction of all gun murders.''
    Several years later, a follow-up study found that assault 
weapons were used in a particularly small percentage of gun 
crimes and that assailants fire less than four shots on 
average, a number well within the 10-round magazine limit 
imposed by the ban.
    Given the outcome of these studies and the fact that the 
Nation's murder rate, which was already in decline prior to the 
1994 ban, continues to decrease. Legislation that seeks to ban 
semiautomatic firearms and restrict magazine capacity will not 
address the root causes of America's violent crime problem or 
greatly contribute to public safety because it is not the lack 
of laws that is a problem. It is the lack of enforcement of 
existing laws.
    Ten years ago, I ran for office because I watched as 
elected officials passed feel-good legislation without any 
regard for implementation and enforcement of such laws. As a 
law enforcement officer, I saw firsthand how difficult it was 
to convince State and Federal agencies to prosecute criminals 
for illegal gun possession or other crimes. The attitude of 
many of the prosecutors that I worked with was that these type 
of crimes were nuisance cases that were a drain on their 
resources. If we do not prosecute those who try to purchase 
firearms illegally or possess firearms illegally, then what 
good does it do to pass more laws?
    In addition to enforcing already existing laws for 
prosecution, we must get a handle on how to keep firearms out 
of the hands of the mentally ill--a problem that my State of 
Florida has proactively addressed over the past 7 years.
    In 2006, as a member of the Florida House of 
Representatives, I sponsored House Bill 151, which required the 
State to create and maintain a database of persons adjudicated 
mentally defective or committed to mental institutions. The 
bill also required authorized law enforcement to disclose the 
collected data to Federal Governmental agencies and other 
States for use exclusively in determining the lawfulness of a 
firearm sale or transfer.
    Two years later, another bill I sponsored expanded the use 
of the mental health database so that law enforcement could 
also check residents applying for concealed-carry permits and 
firearm licenses, and expanded the definition of ``adjudicated 
mentally defective'' to include those involuntarily committed 
to outpatient mental health treatment centers.
    Both of these bills are excellent examples of laws that 
improve public safety by keeping firearms out of the hands of 
the mentally ill without endangering the freedoms of law-
abiding gun owners.
    We are at a turning point now. You have an opportunity to 
do what is right, and that may not be the easiest route. It is 
not time for feel-good legislation so you can say you did 
something, but it is time for a true discussion on the culture 
of violence and how to prevent more violent crime.
    Thank you.
    [The prepared statement of Ms. Adams appears as a 
submission for the record.]
    Senator Feinstein. Thank you very much.
    And our wrap-up speaker, the distinguished president of the 
Conference of Mayors, Mayor Michael Nutter of Philadelphia.

          STATEMENT OF HON. MICHAEL A. NUTTER, MAYOR,
         PHILADELPHIA, PENNSYLVANIA, AND PRESIDENT, THE
           U.S. CONFERENCE OF MAYORS, WASHINGTON, DC

    Mayor Nutter. Senator Feinstein, all the Members of this 
Committee, I am Michael A. Nutter, mayor of the city of 
Philadelphia and president of the U.S. Conference of Mayors. I 
am honored to have the opportunity to appear before you today 
on behalf of the Nation's mayors to discuss the importance of 
passing the Assault Weapons Ban of 2013. While we support 
several bills being considered by this Committee, we have made 
passage of the Assault Weapons Ban of 2013 our top priority.
    Gun violence also has been personal for you, Senator 
Feinstein, and it has certainly been personal for me. The first 
police officer my city lost after I became mayor in 2008 was 
killed by an AK-47 or SK-47-type assault weapon when he 
responded to a bank robbery in a supermarket on a Saturday 
morning. I will never forget that day. A 12-year veteran of the 
Philadelphia Police Department, Sergeant Stephen Liczbinski was 
39 years old. He left a wife and three children. Neither our 
police officers nor our citizens, and especially our children, 
should be confronted with these weapons on the streets of our 
cities, in our schools, in our movie theaters, in our shopping 
malls, in our places of worship, or in other civilian settings.
    Gun violence has certainly also been intensely personal for 
Mr. Neil Heslin, who is sharing this table with us today. And 
on a personal note, let me point out it is my own personal 
feeling that some of the statements made today have certainly 
been dispassionately disrespectful to Jesse and all others at 
Newtown and many other cities across this country.
    [Applause.]
    Senator Feinstein. Please.
    Mayor Nutter. Mr. Heslin has been visited by every parent's 
nightmare. I am a father of two children. But with his help we 
can hope to secure legislation that will spare other parents of 
other young children from the unimaginable pain of life lost to 
a weapon designed for mass killing.
    The December 14th tragedy at Sandy Hook Elementary School 
which killed 20 young children and 6 educators in Newtown 
remains incomprehensible to all of us. Too many times during 
the last year, mayors have expressed shock at mass shootings. 
Even more frequently, many of us most cope with the gun 
violence that occurs on the streets of our cities daily. 
Citizens have been killed on Philadelphia streets by handguns 
with high-capacity magazines as well as rifles and shotguns.
    To me, and to America's mayors, these are weapons of mass 
destruction, and they are destroying our communities, our 
streets, our citizens, and our families.
    The U.S. Conference of Mayors has been calling for sensible 
gun safety laws to protect the public for more than 40 years. 
Our call for a ban on assault weapons dates back to 1991. 
Mayors and police chiefs from cities of all sizes have worked 
together in this effort for many years.
    We have done that because of the tremendous toll gun 
violence takes on the American people day in and day out. Every 
day in the United States of America, 282 people are shot, 86 of 
them die, including 32 who are murdered.
    Every day--every day--50 children and teens are shot, and 8 
of them die, including 5 who are murdered.
    Gun violence disproportionately affects urban areas. Our 
Nation's 50 largest metro areas have 62 center cities, and 
those cities account for 15 percent of the population, but 39 
percent of gun-related murders and 23 percent of total 
homicides.
    Philadelphia, like many major cities, has struggled to 
control gun violence for years. However, despite our recent 
success at employing more effective policing techniques, deaths 
due to gun violence have not fallen. Let me use one set of 
statistics to illustrate this point.
    Last year, in Philadelphia, the number of shooting victims 
was 1,282. This is actually down considerably from the year 
before and was the lowest number since we began tracking 
shooting victims in the year 2000. However, the number of 
homicide victims was up slightly--331, seven more than in 2011. 
How are these two statistics possible? The answer is that the 
homicide victims have more bullets killing them. Or, to put it 
another way, there are more rounds being fired and more 
intentional head shots. Victims are bleeding out because when 
you are hit with 8, 10, 12, or 15 shots, even if you do not hit 
a major artery, you will just bleed out in the streets or by 
the time you get to the hospital. So despite better policing, 
when someone is shot in Philadelphia or may other cities, 
sometimes they much more likely to die from the volume of 
rounds that hit them than anything else.
    I would note that Pennsylvania does not have stringent gun 
regulations. When the city of Philadelphia adopted strict gun 
laws a few years ago, Our State Supreme Court struck some of 
those laws down. That is why we need Federal legislation. 
Cities alone cannot reduce gun violence. We are doing 
everything we can, but we are still losing the battle in many 
instances thanks to the proliferation of guns in our Nation.
    Philadelphia's story is not unique. Mayors everywhere 
struggle with gun violence, using scarce city resources to 
fight it--resources that we should be using to educate our 
children, create jobs for our residents, and revitalize our 
cities.
    I have with me this morning a letter originally sent just 3 
days after the Newtown tragedy occurred and now signed by 212 
mayors which calls on the President and Congress to take 
immediate action and make reasonable changes to our gun laws 
and regulations. Listed first among our recommended changes is 
the enactment of legislation to ban assault weapons and high-
capacity magazines. I ask that you include that letter in the 
record of this hearing.
    Senator Feinstein. So ordered.
    [The letter appears as a submission for the record.]
    Mayor Nutter. Let me conclude, Madam Chair. Mayors consider 
protecting the citizens of our cities our highest 
responsibility. We know that keeping our cities and our 
citizens safe requires more than passing sensible gun laws, 
including the assault weapons ban, but we also know that we 
cannot keep our cities safe unless we pass such laws. Your 
Assault Weapons Ban bill is common-sense legislation which will 
help us to reduce the number of people, including police 
officers, who are shot and killed in our cities and throughout 
our Nation. This legislation deserves a vote. This legislation 
deserves to be passed, by this Committee, by the Senate, and by 
the House so that President Obama can sign it into law.
    I know it will take an act of political courage for many 
Members of Congress to support the Assault Weapons Ban of 2013, 
but the time for such political courage is now. How many more 
children, how many more police officers do we have to lose for 
our elected representatives to do the right thing? Please take 
action now on behalf of the most important special interest 
group in America--all Americans.
    Thank you.
    [Applause.]
    [The prepared statement of Mayor Nutter appears as a 
submission for the record.]
    Senator Feinstein. Thank you. Thank you very much, Mr. 
Mayor. It is very much appreciated.
    Mayor Nutter. Thank you.
    Senator Feinstein. Dr. Begg, I would like to ask you this 
question: Did you actually treat Sandy Hook victims?
    Dr. Begg. Yes. I was in the ER that day when the victims 
came in.
    Senator Feinstein. Can you describe the kinds of wounds and 
the number of bullets in these small bodies?
    Dr. Begg. There is privacy rules in HIPAA that prevent me 
from actually detailing the type of wounds. But most of the 
victims actually did not come in. When we have such horrific 
injuries to little bodies, that is what happens. They do not 
even make it to the hospital. The coroner from the State of 
Connecticut, when he did his review--and this is public 
knowledge--stated that each body had 3 to 11 bullets. When a 
child has 3 to 11 bullets in him and it is an assault-type 
bullet that explodes inside the body, it does not go through a 
straight line, it goes in and then it opens up, that is not a 
survivable injury.
    So with respect to the families who lost loved ones and had 
them come into the emergency room and for HIPAA rules, I cannot 
describe the specifics. But hopefully I have at least painted a 
picture of what went on.
    Senator Feinstein. Thank you very much.
    Did you have something that you wanted to show us?
    Dr. Begg. There is a very brief video, about 1 minute, and 
the point of the video is to highlight the difference between a 
bullet that goes into a body that is from a .22--and I am not a 
ballistic expert, but just like basically a handgun versus an 
assault weapon, and it just highlights the difference in damage 
inside of a person's body. So if we may.
    [Videotape shown.]
    Dr. Begg. So, just briefly, the point, the first portion of 
the video represents like a .22 or a handgun, and so the bullet 
goes in on a straight-line track; whereas, the second video 
attempts to represent what--did represent what happens with an 
assault rifle-type bullet that goes in and basically explodes 
inside the body, the point is trying to cause more damage. In 
the military setting, in war, I guess that is the type of goal 
you have, but to have this in the civilian population is just--
I just do not understand. So that is the point of the video.
    Senator Feinstein. Thank you very much. I appreciate
    it.
    Senator Graham.
    Senator Graham. Thank you, Doctor. I definitely get where 
you are coming from. You see a lot of things that most people 
never see.
    Mayor, what percentage of violent deaths involving a 
firearm in your city are a result of handguns versus rifles? Do 
you know?
    Mayor Nutter. Thank you, Senator. In 2012, unfortunately, 
we had 331 murders in the city of Philadelphia, and pretty 
consistently over the last 10 years or so, murder has been 
committed with a gun or other handgun or rifle-type of weapon. 
Usually anywhere from 82 to 85 percent of the murders in 
Philadelphia are committed with a gun.
    Senator Graham. But you do not know--just nationally, 
according to the 2011 numbers, 2.5 percent of homicides were 
committed with some form of a rifle. Do you think that is 
vastly different in Philadelphia? And I know you do not----
    Mayor Nutter. Well, I do have some numbers, Senator. I 
think the thing--so I am not going to talk about the national 
picture.
    Senator Graham. Yes, sir.
    Mayor Nutter. Of 331 murders in Philadelphia last year, 282 
were committed with a handgun, 2 with a shotgun. This year we 
have had 31 murders, which is actually 37 percent down year-to-
date compared to last year, 25 with handguns, 2 with a shotgun, 
including, unfortunately, yesterday morning Jennifer 
Fitzpatrick, 37 years old, a mother of four, was killed by her 
ex-boyfriend in front of her 4-year-old with a 12 gauge shotgun 
after chasing her down the street and shooting repeatedly after 
her.
    So gun violence certainly in Philadelphia and many of our 
major cities across the United States of America, I would only 
suggest, Senator, handgun, rifle, shotgun, dead is dead, and 
that is what being experienced in our cities all across 
America.
    Senator Graham. I could not agree with you more, but the 
reason we have hearings like this is to try to paint the 
picture for America of the problem we are trying to solve.
    Mayor Nutter. Right.
    Senator Graham. And I do not know what percentage of deaths 
are caused by rifles in Philadelphia, but I know nationally it 
is 2.5 percent.
    Mr. Hardy, you have done some research on American 
ownership of the AR-15. Is that correct?
    Mr. Hardy. Yes, sir.
    Senator Graham. Under the Heller definition, do you think 
it would be a commonly used or a weapon in common use at the 
time?
    Mr. Hardy. Senator, I believe it would clearly be a weapon 
in common use at the time. The first bit of research I included 
was that approximately 22 percent of all American rifle 
production at the moment is devoted to the AR-15 platform--
excuse me, that is the minimum--those are companies that only 
make AR-15s. Then you have got the other companies that make 
that plus some other arms.
    Senator Graham. Now, back to the background check, Chief 
Flynn I think had a very interesting observation, that he is 
not into chasing paper. And I guess my point is, if you have 
76,000 people fail a background check and only 13 people plead 
guilty, I am not so sure we are sending the right signal to our 
citizens at large that we are really serious about you trying 
to get a gun illegally when you only have 13 guilty pleas out 
of 76,000. And here is a stunning number, Madam Chairman. 
Nineteen percent of the people who failed a background check 
were fugitives from justice. I mean, that is 13,862 people 
apparently in 2012 failed a background check because they were 
a fugitive from justice, and my point is that if we are only--
we should be going after those folks. No matter how you feel 
about guns, we should be going after those folks.
    From a background check point of view, this legislation, 
Mr. Hardy, as you understand it, would it require a background 
check if I sold the gun to my neighbor?
    Mr. Hardy. I do not know that this bill specifically 
relates to that, but the proposals I have seen would say yes, 
you would be required to go through a dealer.
    Senator Graham. All right. Now, Ms. Adams, about self-
defense, are you familiar with a case in Atlanta--I think it 
happened probably a month or two ago--where a person, a man, 
entered the house with a crowbar, had just gotten out of jail, 
the mother was at home with two twin daughters, I think, she 
took the daughters up to the second floor and hid in a closet, 
the intruder followed up and opened the closet door, she had a 
six-shot revolver, she was on the phone with her husband, she 
emptied the gun, hit him five or six times, and he was able to 
get in his car and drive away. In a situation like that, would 
you object to the mother having a 20-round clip?
    Ms. Adams. No. And I am familiar with it. I heard about it. 
Like many mothers and grandmothers, and as a law enforcement 
officer, the question I had was if he followed them upstairs, 
sought them out when he had full access to any valuables 
downstairs, what was his intent?
    Senator Graham. Well, we will never know what he was up to 
because it ended in a way where the family was safe, and we all 
agree that no one who is mentally unstable or criminal should 
have one bullet with any gun. And the whole point here is to 
try make sure that we balance keeping guns out of the hands of 
the wrong people without--also recognizing the Second 
Amendment.
    I would suggest that in some situations six bullets is not 
enough for a person defending their family and one bullet in 
the hands of the wrong person is way too many, and that is what 
we are trying to accommodate here.
    Now, one last thing, and I will try to wrap this up. There 
is a debate about self-defense, Mr. Hardy. If you had a lawless 
situation, let us say there is a natural disaster somewhere--
unfortunately, these things happen. There are three homes: 
there is a home without a gun, there is a home with a shotgun, 
and a home with an AR-15. If there is a gang roaming around the 
neighborhood, what home do you think is best protected in a 
situation like that?
    Mr. Hardy. I would say in that situation, Senator, the AR-
15, the one with the AR-15. But you do not even have to go to a 
hypothetical. I have been in a situation where you needed--
anywhere along the border. I live about 60 miles from the 
Mexican border. I was within 5 miles of the border with a 
rancher working on a court case. The rancher had a pistol, his 
wife had a pistol, I had a pistol, and they had an AR-15 in the 
car, and I felt distinctly underarmed. I mean, we only had one. 
If you encounter a drug cartel gang coming through, you are 
going to need more than that.
    Senator Graham. And I would just end this by saying that 
Vice President Biden has made the case--and I think he is very 
sincere--to his wife that if you live in a wooded area, you 
have got a double-barrel shotgun, to ward off the bad guys go 
outside and fire a couple shots. And he also made the case to a 
gentleman from California that if there is a natural disaster, 
the shotgun is the preferred weapon over the AR-15 for self-
defense. And I would just say that reasonable people can 
disagree on that.
    Thank you, Madam Chairman.
    Senator Feinstein. Thank you, Senator.
    We must give up this room at 1:30, and we have three 
additional Senators who would very much like to ask questions. 
So I would like to try to keep the timeline.
    Senator Durbin.
    Senator Durbin. Thanks, Madam Chairman. I have listened to 
the arguments on the other side at several hearings, and we 
heard them articulated specifically by one of the other 
Senators in the earlier panel. And he said, ``Let us not rush 
into this too quickly.''
    Two years ago, a member of the United States House of 
Representatives, one of our own, was shot point-blank in the 
face in Tucson, Arizona. We did not even hold a hearing on 
that. ``Do not rush into this too quickly.''
    When you look at what is happening in city after city 
across the United States, we are not rushing into this too 
quickly. We are coming in too late for a lot of these victims. 
So I disregard that immediately.
    The second and third point made by some arguing against 
this effort, laws are not going to solve all the problems, and 
many people will just disregard whatever we do. Well, I think 
we all can see that no law is going to solve all the problems, 
and we realize even today people are speeding on highways 
despite laws saying they should not. Does that mean we do not 
try, we do not make an effort at this?
    But the thing that bothered me the most was the argument is 
we have to take care and be careful to protect the rights of 
law-abiding citizens. To protect the rights of law-abiding 
citizens.
    Mr. Heslin, I walked into the room here when that video was 
on, and there were people up there using AR-15s, spraying 
targets with bullets. And flashed on the screen right after one 
of them was the word ``Fun.'' And I thought about that. And I 
thought about your rights and Jesse's rights as a law-abiding 
citizen to be safe, to be safe in a schoolroom in Newtown, 
Connecticut.
    What about the rights of the law-abiding citizens who wear 
uniforms every day, the men and women in law enforcement who 
get up and put their lives on the line for us? What about their 
rights? Do they not have rights at least equal to these rights 
under the Second Amendment? I think that is what Heller said. 
Heller said this is not an absolute right. And, sadly, 
Professor Johnson, I have been through law schools a long, long 
time ago, and law professors can really kind of dance around 
the top of a head of a pin. But when I listened to you and Mr. 
Hardy describe the Second Amendment, it is a suicide pact, 
because by your definition what has become common in America is 
unacceptable in a civilized country.
    [Applause.]
    Senator Durbin. What has become common in----
    Professor Johnson. I made a very different point, Senator.
    Senator Durbin. I will tell you what, the point I want to 
make is this: If it is common in America to have a military 
assault weapon with a 100-round magazine, if that is common for 
self-defense in America, God save this country.
    Professor Johnson. I made a point about irrational 
classifications.
    [Applause.]
    Professor Johnson. Senator, could I respond?
    Senator Durbin. Please do.
    Professor Johnson. My point was actually that this 
legislation will make things worse on the measure of people who 
support it; that is, it cannot be sustained ultimately. The 
Supreme Court will look at these classifications and----
    Senator Durbin. So let us read what the Supreme Court said. 
Let us read what they said, Professor----
    Professor Johnson. Can I finish?
    Senator Durbin. Let us read exactly what they said. They 
said that we--the Court held in Heller that the Second 
Amendment preserves access to firearms in common use and not 
dangerous or unusual----
    Professor Johnson. And that last piece is exactly my point.
    Senator Durbin [continuing]. Or the purpose of self-
defense----
    Professor Johnson. If it turns out that you----
    Senator Durbin. Excuse me, sir. Are you arguing that the 
AR-15 that we just saw demonstrated there is a common weapon, 
not dangerous or unusual, used for the purpose of self-defense? 
Is that your argument?
    Professor Johnson. That is not my argument, actually, and--
--
    Senator Durbin. Well, then, I can just tell you, you have 
been excluded by Heller. Please respond.
    Professor Johnson. The point of this analysis--and I 
conducted this in 2009, before this issue arose--was that there 
is a necessity for creating a category of exceptionalism. If 
you claim that the AR-15 is exceptional, you have to show that 
its characteristics are not duplicated by items or guns that 
are in your other category of allowed weapons. And my point 
about the shotgun was that all of the claims that are made 
about the exceptional capacities of the AR-15 are better 
illustrated, better demonstrated actually by the shotgun. And 
if you go before the Supreme Court with that, what you will 
have ultimately is a piece of legislation that really just 
generates more demand for the very type of gun that you are 
trying to ban----
    Senator Durbin. Professor----
    Professor Johnson. And ultimately you are going to have the 
same failure----
    Senator Durbin. Professor, I am sorry to cut you off.
    Professor Johnson. That you had in 1994.
    Senator Durbin. My time is running out, and I know lawyers 
and Senators can speak at length. And I would just say this in 
conclusion: I believe this Chairman has made a good-faith 
effort. If you take a look at the number of weapons that are an 
exception to her categories here, there is no law-abiding 
sportsman or hunter or person who wants a gun for self-defense 
who will be left unarmed under the Second Amendment in Illinois 
or any place in the United States.
    Professor Johnson. Those guns are actually more deadly than 
the AR-15----
    Senator Durbin. Excuse me, sir. Excuse me----
    Professor Johnson. That is the point.
    Senator Durbin. The point I am making here is there is 
ample opportunity for applying the Second Amendment, and the 
Heller Court said we can be reasonable in drawing these 
standards.
    And the last point I will make, Representative Adams, this 
is not ``feel-good legislation.'' I am sorry you used that 
phrase in your statement and testimony. I do not feel good 
about being here today. Mr. Heslin does not feel good about 
being here today. We are trying to make this country safe, and 
we are giving our----
    [Applause.]
    Senator Durbin [continuing]. Best efforts to----
    Ms. Adams. Senator, I understand, as someone who has a 
husband on the wall at Judiciary Square. But I also understand 
that the criminals by their very definition do not obey the 
law. So when you take away the guns that people have to protect 
themselves, law-abiding citizens are left unarmed.
    Senator Durbin. I am sure you will now support a universal 
background check to keep the guns out of the hands of 
criminals, will you not?
    Ms. Adams. No, sir, because that is a flawed system also. 
If you want to fix that system first, I would love to have an 
opportunity to discuss that with you.
    Senator Feinstein. Senator Franken.
    Senator Franken. Thank you, Madam Chairwoman. I want to 
thank all the witnesses for being here today.
    Mr. Heslin, we met a few weeks ago. I want to thank you for 
being here, for sharing your story. I read your testimony. 
Jesse sounds like a remarkable--he was a remarkable young boy. 
I read in your written testimony that the last words he said 
were, ``Run'' or ``Run now.'' The witnesses are disputing 
whether he said, ``Run'' or ``Run now,'' and that he was shot--
--
    Mr. Heslin. Jesse was shot two times in the head. One 
bullet grazed his temple, the side of his head. That was not 
the fatal shot. Jesse was one of five students in his class 
that was killed, and the two--the teacher and the teacher's 
assistant. Ten of those students survived the protection of 
Vicki Soto, her actions, and it was stated by several of the 
surviving students that Jesse yelled, ``Run. Run now.''
    Senator Franken. And it was not in his back. He was coming 
to stop----
    Mr. Heslin. Jesse's fatal shot was in his forehead. It went 
in right at his hairline, exited directly behind that. Jesse 
looked that coward Adam Lanza in the eyes, saw his face, and he 
looked at the end of that barrel. Jesse did not run. Jesse did 
not turn his back. That was the fatal shot that killed Jesse.
    Senator Franken. I just want to thank you for your courage 
to be here in spite of how painful it is, and I know that all 
Minnesotans have you and your family and all the families that 
are here in their prayers and in their thoughts. We are just 
trying here to do what we can do to save lives.
    We have heard--and we just heard it again; I talked about 
this in my opening statement--about these hypotheticals, 
imagine this, imagine that. Thus far, in the record, I have not 
seen one example of where an AR-15 is used for self-defense.
    Now, I have been asked to imagine it. I have been asked to 
imagine hypothetical situations, and I can. But I have not 
heard one example on the record. This is our third hearing. So 
what we really are trying to deal with here is reality, what is 
real.
    And, Mayor Nutter, you are a mayor. As I understand it, 
police are more often targeted by assault weapons and are the 
victims of assault weapons than other people. What is the 
reality?
    Mayor Nutter. Senator, thank you. First of all, this idea 
that these weapons are for self-defense, based on our 
experience, is completely absurd. They are self-offensive 
weapons. That is what you use them for, because you are on 
offense. There are certainly instances and there will be the 
unusual situation that someone can pull out from wherever they 
want to pull it out from, and certainly 2 weeks ago, a guy came 
in to rob a store. The owner was in the back. The guy pointed a 
gun at his wife. He pulled off a round, and the owner shot the 
individual with his gun. He did not have an AR-15. He had 
whatever kind of weapon he had, but it was not one of those.
    And from time to time, these kinds of things happen. But 
what we see on the streets, when Sergeant Stephen Liczbinski 
was shot with that assault-type weapon, it almost cut him in 
half. His fellow officers had to drag him and place him in a 
car and rush him to the hospital. I was in that hospital with 
his family, holding his wife, talking to his kids, and saying 
to them, ``I am sorry.'' He did not make it.
    Moses Walker, another Philadelphia police officer, just 
finished his tour of duty, 6 o'clock or so in the morning.
    This is an armed, trained Philadelphia officer. But two 
guys got a jump on him and shot him with an automatic weapon. I 
had to talk to his mother about that.
    Patrick McDonald, shot multiple times with a weapon, with 
the person standing over him. Fortunately, a Philadelphia 
police officer responding to that call dealt with that 
individual, after having been shot in the hip by that person, 
knocked down, and jumped back up to deal with that criminal.
    That is what goes on. That is the reality. This is not 
theory. This is not a class. This is not a case study. People 
die. That is what happens. I go to every one of those hospital 
scenes. I have got mothers without their sons who serve us, 
wives without their husbands. That is the reality of what is 
going on. And no one--and I have been to a few hearings myself, 
Senator. No one has ever been able to explain why a civilian 
should have a military-style assault weapon for anything other 
than the military or law enforcement. I have never heard a 
legitimate explanation.
    [Applause.]
    Senator Franken. Thank you, Mr. Mayor.
    Mayor Nutter. Thank you, Senator.
    Senator Franken. Thank you, Madam Chairman.
    Senator Feinstein. Thank you, Senator Franken.
    Senator Blumenthal.
    Senator Blumenthal. Thank you, Madam Chair. My thanks to 
all the witnesses who are here today for your testimony.
    Dr. Begg, my objective and I believe the objective of many 
of my colleagues here today is to show that your mom is right. 
This time is different. This time we will do something. And the 
reason it is different is that Newtown changed America. It 
changed me. I know it changed you and others who are here today 
and many of my colleagues. So I want to thank you for being 
here.
    And, Mayor Nutter, no city can do it alone. No city can 
stop gun violence alone because our city borders are porous to 
illegal trafficking, and our State borders are as well. And 
that is why Senator Durbin and I and others have led the effort 
to stop illegal trafficking because a national standard and 
national protection are absolutely required.
    Mayor Nutter. Thank you, Senator.
    Senator Blumenthal. Let me just say to all of you, you 
know, there has been a lot of debate here about statistics and 
numbers. The simple fact is we do not have enough research on 
gun violence in this country, and part of the reason is that 
opponents of gun violence protection have placed restrictive 
constraints on the research that can be done by Federal 
agencies in collecting and analyzing research about gun 
violence. Research that could be done by the CDC and the NIH 
has been barred by restrictions placed by the Congress of the 
United States.
    So let me ask every member here: Do any of you feel that we 
have enough research that we should not do any more on the 
issue of gun violence? Dr. Begg. I am asking whether anybody 
disagrees that we need more research.
    Dr. Begg. I agree we need more research. This is a public 
health issue. Thirty thousand people a year die. We give 
resources to--there are four--the top four reasons you are 
going to die: either heart attack, stroke, cancer, or trauma. 
And folks who have cancer and stroke and heart attack, there is 
a lot of research. But there is not the research--there are 
just anecdotes. But the data that is out there is clear that if 
you own a gun, you are 5 times as likely to die from suicide, 
or a lady, you are 5 times as likely to have your partner kill 
you. So we need more research rather than anecdotes.
    Senator Blumenthal. Professor Johnson, you know, I have 
argued some cases in the United States Supreme Court, in fact, 
defending State statutes in our State Supreme Court. I defended 
our assault weapon ban in Connecticut, and won. It was upheld. 
The vast majority--in fact, I do not know of any court 
differing with the rulings made by Federal courts on the 
assault weapon ban that existed before 2004--upheld it. Do you 
know of any decision by a United States district court that 
strikes down an assault weapon ban?
    Professor Johnson. To make a distinction between the pre-
Heller world and now, so----
    Senator Blumenthal. Well, let me just ask the first 
question. Do you know of any decision striking it down? Do you 
know of a letter that was written by 50 constitutional law 
professors, including libertarian and conservative 
intellectuals like Robert Epstein, Eric Posner, Charles Freed, 
from the top law schools of the country, that say that 
restrictions on the manufacture and sale, and I am quoting--and 
I ask that this letter be put in the record, Madam Chairman.
    Senator Feinstein. So ordered.
    [The letter appears as a submission for the record.]
    Senator Blumenthal. Restrictions on the manufacture and 
sale of high-capacity ammunition magazines and assault weapons 
are also consistent with the Second Amendment. Are you aware of 
that letter?
    Professor Johnson. I am aware of that letter, and I know 
many of the folks on that list, but I would venture that most 
of the people on that list have not spent more than a couple of 
hours thinking about this issue. I have spent----
    Senator Blumenthal. Well, I am sure they would differ.
    Professor Johnson. I have spent decades on this, and the 
assessment that I presented----
    Senator Blumenthal. I understand you have spent decades----
    Professor Johnson. In 2009----
    Senator Blumenthal. Let me just ask another question----
    Professor Johnson. Is one that I would urge you to read.
    Senator Blumenthal. I am sure they would differ on the 
amount of time they spent thinking about this issue before they 
signed the letter and----
    Professor Johnson. Most of them have not published on the 
issue.
    Senator Blumenthal. Okay. Well, I will let you settle the 
issue of their credentials academically and----
    Professor Johnson. It is not about their credentials. It is 
about whether they have thought this through.
    Senator Blumenthal. Okay. You know, with all due respect, 
Professor, in the arguments I have done before the United 
States Supreme Court defending State statutes and sometimes the 
action of State officials, the first two propositions out of my 
mouth were, number one, the courts have a responsibility to 
deem constitutional, to presume constitutional valid acts of 
the legislature; and, number two, legislatures are not required 
to solve all of the problem it wants. They can take incremental 
steps towards solving the problem. And I would submit very 
respectfully that the rational basis test, that is, whether an 
assault weapon ban and a prohibition on high-capacity magazines 
is rationally related to the end of preventing gun violence is 
sufficiently established by the testimony we have had here 
today, and that a decision by a court striking down the statute 
that has been proposed would be deemed constitutionally 
incoherent.
    You have used that word ``incoherent''----
    Professor Johnson. Could I just respond?
    Senator Blumenthal. Well, you will be given an opportunity 
to respond, but normally in hearings we allow everybody to 
finish.
    Professor Johnson. I am sorry. Excuse me.
    Senator Blumenthal. Then you will have a chance.
    You have used the word ``incoherent'' to describe the 
legislation that has been proposed here. I think that is, 
number one, disrespectful to the Committee; but, number two, I 
think it is just plain wrong. But, number three, if you have 
suggestions for how to improve it--and this goes for any of the 
members of this panel--certainly we would welcome them because 
our ultimate objective, which I hope you share, is to help save 
lives, the kind of carnage that has been described so 
eloquently by Mayor Nutter and Chief Flynn and United States 
Attorney John Walsh, not to mention by Neil Heslin and Dr. Begg 
based on their person experience. And as many articles as you 
and Attorney Hardy may have written, I do not think you have 
had the personal experience firsthand of seeing how dangerous--
that is the word used by our United States Supreme Court in 
Heller--how dangerous these weapons are. And my hope is that 
perhaps you will be more supportive, because I think America is 
on our side on this issue because America knows this time is 
different.
    Professor Johnson. Could I respond?
    [Applause.]
    Senator Feinstein. Yes, you may.
    Professor Johnson. Senator, first, we are not on different 
sides. The thing that bothers me most about the debate is that 
it turns us against one another. We are all trying to figure 
out how best to be safe. My explicit testimony referenced the 
Army Joint Service Combat Shotgun Program Report, and my point 
was, with respect to the incoherence, that the claims that were 
being made by the Committee and others that justified the 
prohibited category were better descriptions of guns in the 
non-prohibited category, and the Joint Service Combat Shotgun 
Program Report shows that.
    That is the incoherence that I am describing, and that kind 
of incoherence, that is, a classification whose justifications 
will not hold up, is the point of the rational basis review 
issue that I mentioned.
    The other thing to point out about the Heller decision is 
that it requires something far more than simply rational basis; 
that is, it is not an automatic deference to whatever the 
legislature does, because now what we are talking about is a 
constitutional right. So what we end up with ultimately is the 
Supreme Court potentially looking or some court looking at this 
question, making a determination about whether these 
distinctions, whether the classifications between the AR-15, et 
cetera, and all of the things that are on the good-gun list, 
whether those classifications are rational. And if the Court 
ends up saying, no, they are not, then what you will have is a 
piece of legislation that has accelerated in a dramatic way the 
purchases and the number and inventory of the very guns that 
you are trying to eliminate. And that seems to me to be a kind 
of unintended consequence that people should have an 
appreciation for.
    Senator Feinstein. Thank you very much. If I may----
    Senator Blumenthal. Thank you, Madam Chairman. I recognize 
that we will be evicted from this room, but I am sure that we 
will continue this conversation, and I hope it is continued 
constructively with that comment and helping to prevent gun 
violence and the kind of massacre that we saw in Newtown.
    Thank you, Madam Chairman.
    Senator Feinstein. Thank you very much, Senator Blumenthal. 
Senator Franken, thank you for staying throughout this.
    I want to just say a couple of things. I drafted or my 
staff drafted the earlier legislation in 1993, I guess we did 
it in 1994 to 2004. I believe it did make a difference. I 
believe it did just begin to dry up the supply. I think it will 
be judged--this piece of legislation--constitutional. The prior 
piece of legislation went through the Fourth Circuit, the Sixth 
Circuit, the Ninth Circuit, and the D.C. Circuit, and it was 
sustained everywhere.
    So even with Heller, I see no really regular use of an AR-
15, a common use in society. It may be a small group of people 
that use it for target practice or, God forbid, if they use it 
for hunting, they are not much of a hunter. But the irreparable 
damage that is done to bodies from this weapon and other high-
velocity rifles that tears people's bodies apart I do not know 
why as a matter of public policy we cannot say they do not 
belong.
    Is this legislation perfect? No. Would I welcome help? When 
I did this in 1993 and 1994, I said to the NRA, ``If you have 
suggestions, give them to us.'' Nothing. I would say that 
again. If you have suggestions how to improve this, give us the 
suggestions.
    I believe that the American people are for, as a matter of 
public policy, saying that weapons designed for war do not 
belong on the streets of our cities.
    To Mayor Nutter, I became mayor a long time ago, in 1978. 
When I became mayor, the common carry for a police officer was 
a .38 revolver.
    Mayor Nutter. Right.
    Senator Feinstein. And it was ratcheted up and ratcheted 
up.
    Mayor Nutter. Yes.
    Senator Feinstein. And then one day in Los Angeles, the 
police were outgunned in a robbery. They had to break into a 
gun store to get guns that were sufficient to meet the test.
    Mayor Nutter. Right.
    Senator Feinstein. So it has been the ratcheting up of 
weapons----
    Mayor Nutter. It keeps going up.
    Senator Feinstein [continuing]. That go through society and 
have an unparalleled impact. Sandy Hook is an example of the 
unparalleled impact--to families, to children, to teachers, to 
young women who are out there defending their students. It is 
hard for me to understand how anybody can defend that, 
candidly.
    And I just want to say, the courage that it took for people 
from Sandy Hook to be here today, I want to say thank you. And, 
Neil Heslin, I want to say thank you to you. With a little bit 
of help from the people of America, we might even be able to 
pass that. It is an uphill job all the way, but I believe we 
are right, you believe we are right, and we will continue to 
fight.
    So I thank all of you for being here. It is very much 
appreciated. The hearing is adjourned.
    [Applause.]
    Senator Feinstein. I will leave the record open for 
statements, and the two letters from Senator Grassley will be 
entered into the record.
    [The letters appear as submissions for the record.]

    Senator Feinstein. Thank you very much.

    [Whereupon, at 1:28 p.m., the Committee was adjourned.]
    [Additional material submitted for the record follows.]

                            A P P E N D I X

              Additional Material Submitted for the Record
              
              
              
              
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
          
 

                 Additional Submissions for the Record

A list of material and links can be found below for Submissions for the 
 Record not printed due to voluminous nature, previously printed by an 
 agency of the Federal Government, or other criteria determined by the 
                               Committee:

    Nutter, Hon. Michael A., Mayor of Philadelphia, Pennsylvania, and 
President,

     The U.S. Conference of Mayors, Proposal for the Creation of the 
National

     Commission on Domestic Terrorism, Violence and Crime in America, 
proposal:

        https://www.judiciary.senate.gov/imo/media/doc/
        Proposal%20for%20the%
        20Creation%20of%20the%20National%20Commission%20on%20Domestic%
        20Terrorism,%20Violence%20and%20Crime%20in%20America.pdf.

                                 [all]
                                 
                                 
                                 
</pre></body></html>
